<html>
<title> - UNITED STATES STRATEGY AND POLICY IN THE MIDDLE EAST</title>
<body><pre>[Senate Hearing 114-589]
[From the U.S. Government Publishing Office]









                                                        S. Hrg. 114-589

          UNITED STATES STRATEGY AND POLICY IN THE MIDDLE EAST

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 20, 2016

                               __________

         Printed for the use of the Committee on Armed Services



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






        Available via the World Wide Web: http://www.fdsys.gov/

                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-849 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001












                      COMMITTEE ON ARMED SERVICES

JOHN McCAIN, Arizona, Chairman        JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma             BILL NELSON, Florida
JEFF SESSIONS, Alabama                CLAIRE McCASKILL, Missouri
ROGER F. WICKER, Mississippi          JOE MANCHIN III, West Virginia
KELLY AYOTTE, New Hampshire           JEANNE SHAHEEN, New Hampshire
DEB FISCHER, Nebraska                 KIRSTEN E. GILLIBRAND, New York
TOM COTTON, Arkansas                  RICHARD BLUMENTHAL, Connecticut
MIKE ROUNDS, South Dakota             JOE DONNELLY, Indiana
JONI ERNST, Iowa                      MAZIE K. HIRONO, Hawaii
THOM TILLIS, North Carolina           TIM KAINE, Virginia
DAN SULLIVAN, Alaska                  ANGUS S. KING, JR., Maine
MIKE LEE, Utah                        MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina
TED CRUZ, Texas                      
                                     
                     Christian D. Brose, Staff Director
                      Elizabeth L. King, Minority Staff 
                                    Director

                                  (ii)

  







                         C O N T E N T S

________________________________________________________________________

                            January 20, 2016

                                                                   Page

United States Strategy and Policy in the Middle East.............     1

Keane, General John M., USA (Ret.), Chairman, Institute for the       5
  Study of War, and Former Vice Chief of Staff of the Army.
Crocker, Honorable Ryan C., Dean and Executive Professor, The        14
  George Bush School of Government and Public Service, Texas A & 
  M University, and Former United States Ambassador to 
  Afghanistan.
Gordon, Honorable Philip H., Senior Fellow, The Council on           18
  Foreign Relations, and Former Assistant Secretary of State for 
  European and Eurasian Affairs.

Questions for the Record.........................................    52

                                 (iii)

 
          UNITED STATES STRATEGY AND POLICY IN THE MIDDLE EAST

                              ----------                              


                      WEDNESDAY, JANUARY 20, 2016

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in Room 
SH-216, Hart Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, 
Sessions, Ayotte, Fischer, Cotton, Ernst, Tillis, Sullivan, 
Reed, Nelson, McCaskill, Manchin, Shaheen, Gillibrand, 
Blumenthal, Donnelly, Hirono, Kaine, King, and Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning. The Senate Armed Services 
Committee meets this morning to continue our focus on United 
States policy and strategy in the Middle East.
    I want to begin by saying that we all welcome the news this 
weekend that four Americans who had been unjustly held captive 
in Iran were finally released. There will be plenty of time to 
examine the circumstances of their original detention and 
ultimate release, but four Americans being united with their 
families is good news. Now the United States must continue to 
press for the release of those Americans still missing or 
imprisoned in Iran, including Robert Levinson; and we must push 
for the release of thousands of Iranian political prisoners 
jailed by the Iranian regime, which continues to suppress 
dissent and undermine human rights.
    A previous generation of American leaders once remembered 
that they were, quote, ``present at the creation'' of the 
rules-based international order that has been the source of 
unprecedented security and prosperity for the United States and 
the world. If present trends continue, we may well remember 
that we were present at the unraveling of this international 
order. While signs of this unraveling can be seen in Europe and 
Asia, it is most visible and most dangerous in the Middle East.
    All across the region, we see a dangerous breakdown of 
state authority and the balance of power. As Henry Kissinger 
testified before this committee, there is a struggle for power 
within states, a conflict between states, a conflict between 
ethnic and religious groups, and an assault on the 
international system. As General Petraeus also told us last 
year, almost every Middle Eastern country is now a battleground 
or a combatant in one or more wars.
    For the past 7 years, the Obama administration has sought 
to scale back America's involvement and commitment to the 
region, assuming that a post-American Middle East would be good 
for the region and for us, and that regional powers would step 
up to police the region themselves. The results of this massive 
gamble should now be clear to us all. No new order has emerged 
in the Middle East. Only chaos. A power vacuum has opened up in 
the absence of America and has been filled by the most extreme 
and anti-American of forces, Sunni terrorist groups such as 
ISIL [the Islamic State of Iraq and the Levant] and al Qaeda, 
or Shiite extremists such as the Islamic Republic of Iran and 
its proxies, and the imperial ambitions of Vladimir Putin. 
These challenges were always going to be present and difficult, 
but it did not have to be this way, this dangerous. Instead of 
acknowledging its failures and changing course, as previous 
administrations of both parties have done, the administration 
has all too often doubled down on its reactive, incremental, 
and inadequate policies. Now more than a year into the campaign 
to roll back and destroy ISIL, it is impossible to assert that 
ISIL is losing or that we are winning. To be sure, there has 
been some tactical progress, including the recent recapture of 
Ramadi. This is a testament to our civilian and military 
leaders, but serious challenges remain.
    ISIL has lost some territory on the margin, but has 
consolidated power in its core territories in both Iraq and 
Syria. It maintains control of key Iraq cities, like Mosul and 
Fallujah. Our military commanders estimate that this key 
terrain will not be retaken this year.
    The U.N. reports that, since ISIL's invasion of Iraq in 
2014, nearly 20,000 Iraq civilians have been killed, nearly 
3,500 people, predominantly women and children, are estimated 
to be ISIL's slaves in Iraq. As sectarian divisions worsen in 
Iraq, it is no surprise that the training of Iraq security 
forces has been slow and the building of support for Sunni 
tribal forces even slower.
    In Syria, there is no plausible strategy to achieve ISIL's 
defeat on a timeline that won't result in the tragic deaths of 
tens of thousands of Syrians. There is still no ground force 
that is both willing and able to retake Raqqa, nor is there a 
realistic prospect of one emerging soon.
    In the absence of a realistic strategy to create the 
conditions for the achievement of United States goals, the 
administration has instead fallen back on hope, the hope that 
diplomacy, without sufficient leverage, can convince Russia and 
Iran to abandon Bashar Assad and join the fight against ISIL. 
We read, just this morning, that Russia's air campaign 
continues to target moderate opposition groups and may be 
gaining traction in stabilizing the Assad regime. Meanwhile, 
ISIL continues to metastasize across the region in places like 
Afghanistan, Libya, Lebanon, Yemen, and Egypt. Its attacks are 
now global, as we saw in Paris, San Bernardino, and most 
recently in Istanbul. These attacks should be a wake-up call 
that ISIL's threat to our homeland is real, direct, and 
growing, and that we need a strategy to destroy ISIL, not 
ultimately, but as quickly as possible. The administration 
cannot continue to assume that time is on our side.
    One element of the administration's Middle East policy that 
has been clear from the beginning is its policy toward Iran. 
Instead of negotiating a deal to force Iran to give up its 
nuclear program, the administration signed a deal that would, 
as Dr. Kissinger said, merely move from preventing 
proliferation to managing it. Despite all the talk of how this 
nuclear deal has opened a window for a new relationship with 
Iran, the Islamic Republic's behavior has not changed. Indeed, 
rather than empowering Iranian moderates, as the administration 
claimed, the nuclear deal appears to be doing the opposite: 
emboldening hardliners. Iran has now conducted two advanced 
missile tests since October, in violation of U.N. Security 
Council resolutions. It fired rockets within 1,500 yards of a 
U.S. aircraft carrier. Iran seized two United States Navy 
vessels transiting the Persian Gulf, illegally detained 10 
American soldier--sailors, and propagandized the entire 
incident, in total violation of international law and centuries 
of maritime tradition. I must add, as a former Navy person and 
from a Navy family of generations, that's the most humiliating 
thing that I have seen that American sailors, members of the 
United States Navy, has been subjected to in my or their 
lifetime. I am sure that the Iranians used those pictures of 
American servicemen and a -woman on their knees much to their 
great success throughout the world as well as the region.
    Shortly after the result--release of four American hostages 
in Iran, we learned that three Americans were kidnapped in 
Baghdad, apparently by an Iranian-backed Shiite militia. I have 
no doubt that the Obama administration has pursued a new 
relationship with Iran because it believed doing so would 
diminish sectarian tensions in the region, but the reality is 
that the administration's overtures to Iran have only 
exacerbated these tensions and deepened feelings of suspicion 
and alienation among our traditional Sunni partners and our 
allies such as Israel and Turkey. This dynamic has only grown 
worse because the administration has been so slow to offer 
support to those allies and partners, as we have recently seen 
with delayed fighter aircraft sales to Qatar and Kuwait. For 
decades, America's role in the Middle East has been to suppress 
security competition between states with long histories of 
mistrust and to prevent that competition from breaking down 
into open war. This is the responsibility that we are now 
advocating, and we're paying a very heavy price for doing so 
that is only growing.
    I hope that our witnesses today can help us better 
understand the costs of our current course and contemplate a 
better alternative.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman. Let 
me join you in welcoming our witnesses. They have an 
extraordinary wealth of experience and distinguished service to 
the Nation in different capacities.
    Gentlemen, thank you for your service, and we look forward 
to your testimony.
    This past weekend, we saw a number of significant 
developments in the Middle East, most notably implementation 
day of the Joint Comprehensive Plan of Action, or the JCPOA, an 
exchange of prisoners between the United States and Iran, and 
the settlement of a 35-year-old legal dispute between the 
United States and Iran. Individually, these are notable 
developments, but, combined, they have the potential--and let 
me emphasize ``potential''--to represent an inflection point 
and an opportunity to shift the course of United States and 
Iranian relations. The President stated this weekend, the 
opportunity for these kind of changes are rare, indeed.
    While I share the President's hope for new opportunities, I 
also share concerns about Iran's destabilizing actions in the 
Middle East. In order for improved relations to materialize, 
Iran will need to faithfully implement the terms of the JCPOA, 
change its course in its destabilizing actions in Syria, 
Lebanon, and Iraq, and its provocative actions with respect to 
its missile program. I hope the witnesses will provide their 
assessment of these events and what opportunities and 
cautionary notes they would present for consideration to the 
committee.
    I recently returned from a visit to Iraq, where I had the 
opportunity to meet with some of the country's political 
leadership, our Nation's diplomatic representatives, and our 
military commanders on the ground. My visit came on the heels 
of the successful operation by Iraq's security forces to take 
and retake Ramadi. This success, which was enabled by coalition 
airpower, gave a significant confidence boost to the Iraqi 
Security Forces, and I hope this momentum will continue.
    In Syria, as a result of the violent agendas of both the 
Assad regime and ISIL, the humanitarian situation is 
increasingly dire, and the human cost of this conflict is 
staggering. With regard to ISIL, our military has embarked on a 
campaign to ensure that ISIL is under increasing pressure. The 
deployment of additional Special Operations Forces and other 
critical enabling capabilities are important developments. With 
respect to the overall conflict in Syria, Secretary Kerry is 
pursuing an ambitious agenda to facilitate a diplomatic pathway 
to end the conflict, and should be recognized for his 
persistence. I look forward to hearing the views or our 
witnesses on their assessment of whether the current peace 
talks might bear fruit.
    One other issue that struck me during my visit to the 
region was our Government's efforts to counter ISIL in the 
information environment. This is an area where the 
administration is appropriately and necessarily trying to 
breathe new life into interagency efforts on this front through 
the creation of the Global Engagement Center. This is a well-
intended effort, but we must ensure that it is adequately 
resourced and empower it with necessary authorities if it is to 
be successful. I look forward to hearing from our witnesses on 
what they hope to see from this Center; more importantly, how 
we can effectively begin, I think, to win the information war 
which ISIL has been so effective at.
    Given that Ambassador Crocker is here, I'm going to also 
take the opportunity to briefly mention Afghanistan, which I 
also had the opportunity to visit. The security situation is 
challenging, but Afghan National Security Forces remain 
coherent and responsive through the first year in which they 
had sole responsibility for conventional ground combat 
operations. Further complicating the security situation has 
been the emergence of the so-called Islamic State in the 
Khorasan Province, or ISKP. The chairman referred to that. 
Given the increasing threat posed by ISKP to the United States 
and regional security, I support the reported recent approval 
by the White House of targeted strikes against the group. 
Ensuring our commanders on the ground have the proper 
authorities will be critical to the future success of our 
broader efforts to support the Afghan National Security Forces.
    From the political standpoint, the National Unity 
Government, led by President Ghani and CEO [Chief Executive 
Officer] Abdullah, has held together through a difficult year, 
providing an opportunity for progress on key reform issues, 
including governance and corruption. An evaluation of lessons 
learned for the past year may yield new ways in which the 
United States and our coalition partners can improve our 
support to security operations and political progress by the 
Afghans, going forward. Again, I'd be interested, particularly 
from Ambassador Crocker, on what we should do and must do in 
this area.
    Thank you, gentlemen, and I look forward to your testimony.
    Chairman McCain. Welcome, General Keane, Chairman of the 
Institute for the Study of War, and former Vice Chief of Staff 
for the Army; and The Honorable Ryan C. Crocker, Dean and 
Executive Professor of the George Bush School of Government and 
Public Service, Texas A & M University, former United States 
Ambassador to too many countries to name; and The Honorable 
Philip H. Gordon, Senior Fellow of the Council on Foreign 
Relations, and former Special Assistant to the President, and 
White House Middle East Coordinator.
    General Keane, due to your advanced age, we will begin with 
you.
    [Laughter.]
    General Keane. Okay.

   STATEMENT OF GENERAL JOHN M. KEANE, USA (RET.), CHAIRMAN, 
INSTITUTE FOR THE STUDY OF WAR, AND FORMER VICE CHIEF OF STAFF 
                          OF THE ARMY

    General Keane. Thank you, Chairman McCain, Ranking Member 
Reed, distinguished members of the committee. I'm honored to be 
back to provide testimony again on the challenges of the Middle 
East.
    This committee's persistence in keeping us focused on the 
unparalleled upheaval in the Middle East is commendable. Thank 
you for your hard work and much welcome reforms that are 
included in the National Defense Authorization Act.
    I am honored to be a part of this distinguished panel with 
The Honorable Phil Gordon, and particularly to be reunited with 
Ambassador Crocker, who remains today America's most successful 
and preeminent diplomat, whose extensive service throughout the 
Middle East is legendary. I was privileged to work with 
Ambassador Crocker during the Iraq and Afghanistan surges while 
I was assisting General Petraeus.
    In previous testimonies before this committee, I provided 
details on how to defeat ISIS [the Islamic State of Iraq and 
Syria] in Iraq and Syria, and also on Russia's involvement in 
Syria. Today, my focus is yours and what you've asked us to do, 
and that is to deal with overall U.S. policy and strategy in 
the region. I've brought along a couple of maps for you to look 
at. I think they'll put them up on boards when we reference 
them, and they--you should have them at your seat, as well.
    The Middle East has experienced one of the most tumultuous 
periods in its history, with the old order challenged by the 
aspirational goals of the Arab Spring, radicalized Islamists 
taking advantage of the political and social upheaval, and the 
Islamic State of Iran using proxies to achieve regional 
influence and control. Some issues in the Middle East have been 
simmering for some time and certainly are underlying factors, 
such as historical sectarianism, repressive regimes, political 
and social injustice, and the lack of economic opportunity, 
exacerbated now by the price of oil. One cannot simply blame 
these larger forces operating in the region and absolve the 
United States of specific policy decisions that has had 
unintended adverse consequences. Let's just go name a few:
    Egypt. In 2010, the Arab Spring begins, and, in looking 
back, while most Arab countries were in some form of pre-
revolutionary phase, it was a strategic surprise. The United 
States, in the face of major civil unrest in Cairo, abandons 
Mubarak, a multi-decade ally of the United States and an ally 
of the Arab states in the region. The result is, the Muslim 
Brotherhood, who are elected, moved quickly without any United 
States opposition, to transition Egypt, a seculist state, to an 
Islamic state. Iran supports the Muslim Brotherhood. The Muslim 
Brotherhood, as we know, quickly lose support of the people and 
are deposed in a military coup.
    Libya. In 2011, after Qadhafi is deposed and killed, a 
newly elected moderate Islamic regime requests support to train 
a national security force to repress the radical militants. The 
United States refuses. Some of the same militants, Ansar al 
Sharia, burn down the United States Consulate, kill the 
Ambassador and three others, force the evacuation of a covert 
CIA [Central Intelligence Agency] base, and, the following 
year, force a United States retreat from Libya, with the 
closing of the United States Embassy. Libya is now a failed 
state, a breeding ground for radical Islamists, and the largest 
ISIS presence outside of Syria and Iraq.
    Iraq. Whether the 2003 invasion was misguided or righteous, 
it ushered in the first Arab democracy in the Middle East while 
also giving rise to al Qaeda in Iraq, who was defeated in 2008. 
In 2009, the new United States administration began to distance 
itself politically from Iraq, providing the entree for greater 
Iranian influence and culminating in a total military pullout 
from Iraq in 2010. Prime Minister Maliki immediately begins a 
purge of political opponents and military leaders, and al Qaeda 
reemerges that same year.
    Syria. Syria's civil war, growing out of the Arab Spring in 
2011, is stalemated because the rebels' initial gains are 
thwarted by Iranian proxies, the Hezbollah, and Iraqi Shiite 
militias, plus the Quds Force, and much needed supplies and 
equipment from Russia and Iran. The rebels, in 2011 and 2012, 
seek assistance from the United States, which is recommended by 
Secretaries Clinton and Panetta, General Dempsey, and Director 
Petraeus. The United States refuses. Al-Qaeda in Iraq is 
incentivized by the protracted civil war in Syria, moves out of 
Iraq with several hundred Iraqi fighters, establishing a 
sanctuary in the northeastern Syria, and grows a terrorist army 
of some 30,000 to 40,000. This strategic decision that Baghdadi 
made is transformational for him, and was the most critical 
decision he has made since he's been the leader of al Qaeda in 
Iraq and now ISIS and the Islamic State. Two years later, ISIS 
invades Iraq and expands its territory in Syria. ISIS, as we 
know it today, would not exist without the opportunity that 
Syria provided. In 2013, the chemical weapons redline is 
crossed. The United States does not respond as promised. Arab 
allies are dismayed and disillusioned. Assad continues to 
conduct, as we all are painfully aware, a comprehensive 
depopulation campaign killing 250,000 civilians, displacing 11 
million people, forming them outside the region, resulting in 
thousands of Syrians joining tidal waves of others in the 
region to migrate to Europe.
    In Yemen, Iranian-backed Houthis, in 2014, force the United 
States-backed Yemen Government to topple, and the much-touted 
United States counterterrorism operation is in full retreat, 
with the closing of U.S. military operations and the United 
States Embassy in Yemen.
    This is an extraordinary chronology of events, where United 
States policy, while not necessarily the primary cause of these 
disturbing events, was at least a factor in further 
destabilizing the Middle East and losing the confidence and 
trust of our allies in the region, so much so that Russia is 
seeking to replace the United States as the most influential 
out-of-region nation. Many of our allies are listening.
    However, the most critical policy failures are essentially 
strategic, and therefore have the most profound impact. Simply 
stated, they are the United States and allies' strategic 
failure to organize, plan, and defeat radical Islam and to 
successfully counter Iranian regional hegemony.
    As to radical Islam, 23 years after the first World Trade 
Center bombing, and 14-plus years after 9/11, we still have no 
comprehensive strategy to defeat radical Islam. Radical Islam 
is morphing into a global jihad with the expansion of al Qaeda 
and the extraordinary success of ISIS, which has rapidly become 
the most successful terrorist organization in history, still 
growing at one and a half to 2,000 per month and expanding into 
affiliate organizations throughout the Middle East, Africa, 
South and Southeast Asia, and developing a worldwide following, 
where believers are willing to kill their fellow citizens, 
foment terror and unrest, and mobilize--excuse me--and polarize 
the population between Muslim and non-Muslims. See the map, 
provided by the Institute for the Study of War, which depicts 
ISIS's desire to expand into affiliates in the near abroad, in 
orange; and the far abroad, in yellow; with the number of 
current affiliates, as represented by the black stars; and 
affiliates that are in process of approval, in blue stars. Most 
of the far abroad will not have affiliates, but, rather, 
radicalized followers who are inspired by ISIS to act, either 
as individuals or small cells.
    The United States strategic failure derives not from--
derives from not understanding the nature of the conflict. The 
Bush war on terror and the Obama counterterrorism war are 
simply tactics. The battle is within Islam itself, where, in 
the Arab world, this battle is intersecting with authoritarian 
regimes' and family monarchies' failure to politically reform 
and to adjust to the needs of their societies. Therefore, we 
are fighting a political and religious ideology which draws its 
origin from the very strict interpretation of the Qur'an and 
Hadith as well as the intolerance of Wahhabism and Salafism. 
Political leaders such as al Sisi and King Abdullah have 
referred to it as a religious revolution. Yet, the current 
United States administration fails to define radical Islam, or 
explain it, nor understand it. How can we possibly defeat 
radical Islam if we don't understand it? Knowing the kind of 
war you are fighting is the first priority of a national or 
military leader. Given this purposeful misunderstanding, or 
self-deception at best, by not acknowledging this narrowly 
focused Islamic ideology, it creates an unnecessary condition 
where all Muslims are brought under suspicion. Law-abiding, 
faith-based, traditional or modern Muslims, who would do no 
harm to their fellow man and resent any association with 
radical Islam, deserve better treatment than that.
    This is a 21st-century generational ideological struggle 
similar to the 20th-century multigenerational struggle with 
communist ideology. The 9/11 Commission recommended a global 
alliance to design a strategy and to work together to defeat 
radical Islam. King Salman of Saudi Arabia is organizing a 34-
member alliance to combat radical Islam, and it remains to be 
seen if it amounts to anything substantive. I do know it begs 
for the United States to play a leadership role. The next 
President of the United States will likely defeat ISIS in Iraq 
and Syria, having provided the required resources and 
leadership necessary to do the job. ISIS and radical Islam is a 
global movement. It is not a question of whether we want to 
combat radical Islam; it's unavoidable. The only question is 
how.
    While I believe global alliance members should design a 
strategy, and not the United States, there are some elements 
that are obvious and critical. National leaders and Muslim 
clerics must undermine the political and religious ideology 
with not just what is wrong, but what is the right thinking and 
ideology. Arab Muslim countries must change the levels of 
intolerance and the influence of Wahhabism. Political reform 
and social justice are essential. Financial and economic 
support must be countered. Countries permitting such behavior 
by their citizens should be held accountable. Intelligence, 
technology, and selected equipment should be shared. Partnering 
for training and military education is essential to raise the 
level of operational competence. There is no substitute for an 
effective ground force supported by airpower. Airpower is an 
enabler, it is not a defeat mechanism.
    This is about alliance members providing the predominant 
military response. It's not the United States military. The 
United States military would provide a certain level of 
support.
    Enemy combatants should be pursued aggressively and 
ruthlessly. Destroy and defeat radical Islamic sanctuaries. 
Sanctuaries or safe havens, by themselves, protract the 
conflict and drive up the casualties. Syria is a sanctuary. 
Libya is rapidly becoming one. Pakistan, for 14 years, has 
provided two sanctuaries for the Taliban and has unnecessarily 
protracted that war.
    As to Iran, in 1980 Iran declared the United States as a 
strategic enemy, with its stated goal to drive the United 
States out of the region, achieve regional hegemony, and 
destroy the state of Israel. It uses proxies primarily as the 
world's number-one state sponsoring of terrorism and to fight 
proxy wars. Beginning in the early 1980s, it began jihad 
against the United States by bombing the marine barracks, the 
United States Embassy, and the annex in Lebanon, something our 
Ambassador is intimately familiar with, the United States 
Embassy in Kuwait, the Air Force barracks, Khobar Towers, in 
Saudi Arabia, and attacking the United States military in Iraq 
using Shiite militias trained in Iran with advanced IEDs 
developed by Iranian Quds Force engineers.
    During the '80s, Iran began an aggressive kidnapping and 
assassination campaign, which resulted in numerous American 
hostages and the death of CIA Station Chief Buckley. A policy 
of hostage-taking for political gain continues to this day, as 
we are very much aware of.
    To date, the result is, United States troops left Lebanon, 
Saudi Arabia, and initially Iraq, while Iran, as you can see on 
the next map, The Changing Middle East map, in red, has direct 
influence and some control over Lebanon, Gaza, Syria, Arak, and 
Yemen, while strategically desiring to influence not only the 
major shipping in the Gulf, but the shipping entering and 
departing the Suez Canal.
    Let me just add, editorially. When you talk to a leader in 
the Middle East, an Arab Sunni leader, this is what they think 
of when they think of Iran, this is how they see Iran and what 
it's doing, in terms of their future security and stability.
    Is there any doubt that Iran is on the march and is 
systemically moving toward their regional hegemonic objectives? 
Some suggest that Iran is agreeing to a delay in acquiring a 
threshold capability toward a nuclear weapon is a transforming 
event that may lead to Iran joining the community of nations 
seeking stability and security. Given a return of $100 billion 
in sanction relief funds and a proven track record of 
belligerence and armed violence to pursue its goal, a tough-
minded skepticism is in order to force compliance on the 
nuclear deal, as Senator Reed mentioned, and finally, once and 
for all, the first development of a regional strategy to 
counter Iran. A remarkable fact is that, since the killing of 
Americans and hostages taken by Iran and its proxy wars began 
in the 1980s, no American President, Democrat or Republican, 
has ever countered Iran's regional strategy. No more than ever 
with Iran developing--excuse me--now more than ever, with Iran 
developing a ballistic missile capability and likely to cheat 
on the conditions of the nuclear deal, because it can, it is an 
imperative to join with Israel, our Arab and European allies, 
to counter Iran's strategy of regional hegemony. A part of that 
strategy's concrete steps should be taken:
    In Syria, to reverse the decision that Assad can stay, 
which guarantees there will never be a negotiated peace, a 
concession Secretary Kerry made, I believe, to the Russians 
just to get them to participate; establish safe zones and no-
fly zones in Syria to change the momentum against the Assad 
regime and protect the Syrian people; move eventually to a 
transition government; and, eventually, independently observe 
national elections.
    In Iraq, establish a key political objective to reduce 
Iranian influence and to gain Prime Minister Abadi's strong 
political, military, and economic support for the Sunni tribes 
and the Kurds; dispatch Ambassador Crocker to Iraq to once 
again assist an Iraq Government--sorry, Ambassador--in 
achieving political unity, something I've been saying publicly 
since the 2014 invasion.
    In Yemen, assist the Kingdom of Saudi Arabia and the Gulf 
states in pushing back against the Houthis with intelligence, 
targeting and striking targets if necessary. Ballistic missile 
testing, malign proxy regional behavior, hostage-taking, and, 
of course, any nuclear-deal violation should all be met with 
tough, unrelenting economic sanctions. Failure to counter 
Iran's malign influence has encouraged their aggressive and 
destructive behavior for 36 years.
    In conclusion, first and foremost, the United States should 
return to its historic role of the major out-of-region power 
helping our allies to secure a stable and prosperous Middle 
East. The United States major policy challenges in the Middle 
East surround the development of comprehensive strategies to 
defeat radical Islam and to counter Iranian aggression and 
malign behavior. If these competencies are not addressed, the 
Middle East will continue to be in freefall as the Middle East 
problems becomes the world's problems in confronting global 
jihad.
    The potential of Middle East war between the Kingdom of 
Saudi Arabia and Iran, and supported by their allies, is real, 
and a nuclear Middle East proliferation leading to the horror 
of the world's first nuclear exchange is real, which is 
Secretary Kissinger's major concern as a result of the nuclear 
deal. The risk has always been high in the Middle East, and the 
challenge is certainly complex, but now inadequate strategies 
and misguided policies are driving up that risk exponentially.
    Thank you, and I appreciate you giving me an extra few 
minutes to explain that. I look forward to your questions.
    [The prepared statement of General Keane follows:]

              Prepared Statement by General John M. Keane
    Thank you Chairman McCain, ranking member Reed, distinguished 
members of the committee, am honored to be back to provide testimony 
again on the challenges of the Middle East. This committee's 
persistence in keeping its focus on the unparalleled upheaval in the 
Middle East is commendable. I am honored to be part of this 
distinguished panel, particularly, to be reunited with Ambassador 
Crocker who remains today America's most successful and preeminent 
diplomat whose extensive service throughout the Middle East is 
legendary. I was privileged to work with Ambassador Crocker during the 
Iraq and Afghanistan surges while I was assisting General Petraeus. I 
have provided two maps which I will reference in testimony.
    The Middle East is experiencing one of the most tumultuous periods 
in its history with the old order challenged by the aspirational goals 
of the Arab Spring, radicalized Islamists taking advantage of the 
political and social upheaval and the Islamic state of Iran using 
proxies to achieve regional influence and control. Some issues in the 
Middle East have been simmering for some time and are certainly 
underlying factors; such as historical sectarianism, repressive 
regimes, political and social injustice and the lack of economic 
opportunity. One cannot simply blame these ``larger forces operating in 
the region'' and absolve the U.S. of specific policy decisions that has 
unintended adverse consequences:
    <bullet>  EGYPT: In 2010 the Arab Spring begins, and in looking 
back while most Arab countries were in some form of a pre-revolutionary 
phase, it is a strategic surprise. The United States, in the face of 
major civil unrest in Cairo abandons Mubarak, a multi decade ally of 
the United States and an ally of the Arab states in the region. The 
result is the Muslim Brotherhood who are elected, move quickly without 
any United States opposition to transition Egypt, a secular state, to 
an Islamic state. Iran supports the Muslim Brotherhood. The Muslim 
Brotherhood, as we know, loses support of the people and are deposed in 
a military coup.
    <bullet>  LIBYA: In 2011 after Qadaffi is deposed and killed, a 
newly elected moderate Islamic regime requests support to train a 
national security force to repress the radical militants. The U.S. 
refuses. Some of the same militants, Ansar al Sharia burn down the 
United States consulate, kill the U.S. Ambassador and 3 others, force 
the evacuation of a covert CIA base and the following year force a 
United States retreat from Libya with the closing of the United States 
Embassy. Libya is now a failed state, a breeding ground for radical 
Islamists and the largest ISIS presence outside of Syria and Iraq.
    <bullet>  IRAQ: Whether the 2003 invasion was misguided or 
righteous, it ushered in the first Arab democracy in the Middle East, 
while also giving rise to al Qaeda in Iraq, who was defeated in 2008. 
In 2009 the new United States administration began to distance itself 
politically from Iraq, providing the entree for greater Iranian 
influence and culminating in a total military pullout from Iraq in 
2011. PM Maliki immediately begins a purge of political opponents and 
military leaders and al Qaeda reemerges that same year.
    <bullet>  SYRIA: Syria's civil war growing out of the Arab Spring 
in 2011 is stalemated because the rebels initial gains are thwarted by 
Iranian proxies, the Hezbollah and Iraqi Shia militias plus the Quods 
force and much needed supplies and equipment from Russia and Iran. The 
rebels in 2011 and 2012 seek assistance from the U.S. which is 
recommended by Secretaries Clinton and Panetta, General Dempsey and 
Director Petraeus. The U.S. refuses. AQ in Iraq is incentivized by the 
protracted civil war in Syria, moves out of Iraq with several hundred 
Iraqi fighters, establishes a sanctuary in north eastern Syria , and 
grows a terrorist army of some 30 to 40K. Two years later ISIS invades 
Iraq and expands its territory in Syria. ISIS as we know it today would 
not exist without the opportunity that Syria provided. In 2013 the CW 
redline is crossed, the U.S. does not respond as promised. Arab allies 
are dismayed. Assad continues to conduct a comprehensive depopulation 
campaign, killing 250k plus civilians, displacing 11 million people, 4 
million outside of Syria, resulting in thousands of Syrians joining 
tidal waves of others in the region to migrate to Europe.
    <bullet>  YEMEN: Iranian backed Houthis in 2014 force the United 
States backed Yemen Government to topple and the much touted United 
States counter terrorism operation is in full retreat with the closing 
of U.S. military operations and the United States Embassy in Yemen.
    This is an extraordinary chronology of events where U.S. policy, 
while not necessarily the primary cause of these disturbing events, was 
at least a factor in further destabilizing the Middle East, and losing 
the confidence and trust of our allies in the region. However, the most 
critical policy failures are essentially strategic and therefore have 
the most profound impact. Simply stated, they are the United States and 
allies strategic failure to defeat radical Islam and to 
successfullycounter Iranian regional hegemony.
                            1. radical islam
    Twenty three years after the first World Trade Center bombing and 
fourteen plus years after 9/11 we still have no comprehensive strategy 
to defeat radical Islam. Radical Islam is morphing into a global Jihad 
with the expansion of al Qaeda and the extraordinary success of ISIS 
which has rapidly become the most successful terrorist organization in 
history still growing at 1.5 to 2K per month and expanding into 
affiliate organizations throughout the Middle East, Africa, South and 
South East Asia and developing a worldwide following where believers 
are willing to kill their fellow citizens, foment terror and unrest and 
polarize the population between Muslims and non Muslims. See the map 
provided by the Institute for the Study of War which depicts ISIS's 
desire to expand into affiliates in the ``near abroad'' in orange and 
the ``far abroad'' in yellow with the number of current affiliates as 
represented by the black stars and affiliates that are in process of 
approval in blue stars. Most of the ``far abroad'' will not have 
affiliates but rather radicalized followers who are inspired by ISIS to 
act either as individuals or small cells.
    U.S. strategic failure derives from not understanding the nature of 
the conflict. The Bush war on terror and the Obama counter terrorism 
war are simply tactics. The battle is within Islam itself where in the 
Arab world this battle is intersecting with authoritarian regimes and 
family monarchies failure to politically reform and to adjust to the 
needs of their societies. Therefore, we are fighting a political and 
religious ideology which draws its origin from the very strict 
interpretation of the Quran and Hadith as well as the intolerance of 
Wahhabism and Salafism . Political leaders such as al Sisi and King 
Abdullah have referred to it as a ``religious revolution.'' Yet the 
current United States administration fails to define radical Islam, or 
explain it nor understand it. How can we possibly defeat radical Islam 
if we don't understand it? Knowing the kind of war you are fighting is 
the first priority of a national or military leader. Given this 
purposeful misunderstanding or self deception at best by not 
acknowledging this narrowly focused Islamic ideology it creates an 
unnecessary condition where all Muslims are brought under suspicion. 
Law abiding, faith based, traditional or modern Muslims who would do no 
harm to their fellow man and resent any association with radical Islam, 
deserve better treatment than that.
    This is a 21st century generational, ideological struggle similar 
to the 20th century multi generational struggle with communist 
ideology. The 9/11 Commission recommended a global alliance to design a 
strategy and to work together to defeat radical Islam. King Salman of 
Saudi Arabia is organizing a 34 member alliance to combat radical Islam 
and it remains to be seen if it amounts to anything substantive. I do 
know it begs for the U.S. to play a leadership role. The next President 
of the United States will likely defeat ISIS in Iraq and Syria but ISIS 
and radical Islam is a global movement. It is not a question of whether 
we want to fight radical Islam. It's unavoidable. The only question is 
how?
    While I believe global alliance members should design a strategy 
and not the U.S., there are some elements that are obvious and 
critical:
    <bullet>  National leaders and Muslim clerics must undermine the 
political and religious ideology with not just what is wrong but what 
is the right thinking and ideology.
    <bullet>  Arab Muslim countries must change the levels of 
intolerance and the influence of Wahhabism.
    <bullet>  Financial and economic support must be countered and 
countries permitting such behavior by their citizens should be held 
accountable.
    <bullet>  Intelligence, technology, and selected equipment should 
be shared.
    <bullet>  Partnering for training and military education is 
essential to raise the level of operational competence. There is no 
substitute for an effective ground force supported by air power. Air 
power is an enabler not a defeat mechanism.
    <bullet>  Enemy combatants should be pursued aggressively and 
ruthlessly.
    <bullet>  Destroy and defeat radical Islamist sanctuaries. 
Sanctuaries or safe havens by themselves protract the conflict and 
drive up the casualties. Syria is a sanctuary, Libya is rapidly 
becoming one and Pakistan for 14 years has provided two sanctuaries for 
the Taliban.
                                2. iran
    In 1980 Iran declared the United States as a strategic enemy and 
its goal is to drive the United States out of the region, achieve 
regional hegemony and destroy the state of Israel. It uses proxies, 
primarily, as the world's number one state sponsoring terrorism and to 
fight proxy wars. Beginning in the early 1980's it began jihad against 
the United States by bombing the Marine barracks, the United States 
Embassy and the Annex in Lebanon, the United States Embassy in Kuwait, 
the AF barracks, Khobar Towers in Saudi Arabia and attacking the United 
States military in Iraq using Shia militias trained in Iran with 
advanced IEDs developed by Iranian engineers. During the 80's Iran 
began an aggressive kidnapping and assassination campaign which 
resulted in the death of CIA station chief Buckley and numerous 
American hostages. A policy of hostage taking for political gain 
continues to this day.
    To date, the result is, United States troops left Lebanon, Saudi 
Arabia, and initially Iraq while Iran as you can see on the ``Changing 
Middle East Map'' in red has direct influence and some control over 
Lebanon, Gaza, Syria, Iraq and Yemen while strategically desiring to 
influence not only the major shipping in the Gulf but the shipping 
entering and departing the Suez Canal. Is there any doubt that Iran, is 
on the march and is systematically moving toward their regional 
hegemonic objective? Some suggest that Iran in agreeing to a delay in 
acquiring a threshold capability toward a nuclear weapon is a 
transforming event that may lead to Iran joining the community of 
nations seeking stability and security. Given a return of 100B in 
sanction relief funds and a proven track record of belligerence and 
armed violence to pursue its goals, a tough minded skepticism is in 
order, to force compliance on the nuclear deal and finally, once and 
for all, the first development of a regional strategy to counter Iran. 
A remarkable fact is that since the killing of Americans and hostage 
taking by Iran and its proxies began, in the 1980's, no American 
president, Democrat or Republican, has ever countered Iran's regional 
strategy. Now more than ever with Iran developing a ballistic missile 
capability and likely to cheat on the conditions of the nuclear deal, 
because it can, it is an imperative to join with Israel, our Arab and 
European allies, to counter Iran's strategy of regional hegemony.
    As part of that strategy concrete steps should be taken:
    1)  In Syria to reverse the decision that Assad can stay, which 
guarantees there will never be a negotiated peace. Establish safe zones 
and no fly zones in Syria to change the momentum against the Assad 
regime and protect the Syrian people. Move to a transition government 
and eventual independently observed national elections.
    2)  In Iraq establish a key political objective to reduce Iranian 
influence and to gain PM Abadi's strong political, military and 
economic support for the Sunni tribes and the Kurds. Dispatch 
Ambassador Crocker to Iraq to once again assist an Iraq Government in 
achieving political unity.
    3)  In Yemen assist KSA and the Gulf states in pushing back against 
the Houthis with intelligence, targeting and striking targets if 
necessary.
    4)  Ballistic missile testing, malign proxy regional behavior, 
hostage taking, and, of course, any nuclear deal violation should all 
be met with tough, unrelenting economic sanctions.
    Failure to counter Iran's malign influence has encouraged their 
aggressive and destructive behavior for 36 years.
    In conclusion the United States major policy challenges in the 
Middle East surround the development of comprehensive strategies to 
defeat radical Islam and to counter Iranian aggression and malign 
behavior. If these competencies are not addressed the Middle East will 
continue to be in freefall as the Middle East problems become the 
world's problems in confronting global jihad, a conventional Middle 
East war between KSA and Iran supported by their allies and nuclear 
Middle East proliferation leading to the horror of the world's first 
nuclear exchange. The risk has always been high in the Middle East and 
the challenges certainly complex but now inadequate strategies and 
misguided policies are driving up that risk exponentially.
    Thank you and I look forward to your questions.
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
  
     
      

    Chairman McCain. Thank you.
    Ambassador Crocker.

  STATEMENT OF HONORABLE RYAN C. CROCKER, DEAN AND EXECUTIVE 
  PROFESSOR, THE GEORGE BUSH SCHOOL OF GOVERNMENT AND PUBLIC 
   SERVICE, TEXAS A &M UNIVERSITY, AND FORMER UNITED STATES 
                         AMBASSADOR TO
                          AFGHANISTAN

    Ambassador Crocker. Thank you, Mr. Chairman, Senator Reed, 
members of the committee. It's an honor to be with you this 
morning.
    You have my written testimony, I believe, Mr. Chairman. I 
will just make a few brief remarks now so we can get on with 
the questions.
    I would start where General Keane left off. In a region 
experiencing unprecedented tumult in its 100-year modern 
history, there is an urgent need for a reassertion of U.S. 
engagement and leadership. I'll have some specifics.
    I was just in the Middle East last month, and talking to 
some long-time friends in Lebanon, with Saudis, with some 
Syrians. There is a perception that the United States is not 
engaged, is absent, and that malign forces are, therefore, 
having a field day out there. Our friends are uncertain and 
scared. Our adversaries are gaining ground. We need to make 
this clear, that what happens in the Middle East is of vital 
national importance to us. It is, sir. At a time when states 
are failing and nonstate actors are rising, it's become all too 
clear that, as my good friend and former wingman Dave Petraeus 
has said, ``What happens in the Middle East does not stay in 
the Middle East.'' That was the lesson of Paris. So, we have an 
urgent national security imperative, here.
    Let me just say, briefly, on Iran, since that obviously is 
the issue of the hour around town, there are some pretty 
momentous developments. They're important. I think the 
implementation of the JCPOA is important for regional security 
and global security. We are going to have to be very vigilant 
to see that Iran follows through. We're delighted, as you said, 
Mr. Chairman, that our hostages have come home. As I look at 
this over the sweep of recent history, these are transactions, 
they're not transformations. I'm reminded of our arms control 
agreements with the Soviets in the '80s. They made the world a 
safer place, with a nuclear power, not just an aspirant nuclear 
power, but they didn't transform anything. The Cold War 
continued. We continued to stand against the evil empire, in 
spite of some important arms control transactions.
    I was in Lebanon when some of our hostages were taken, and 
I was in Lebanon when they came home. I loaded the remains of 
my former colleague, Bill Buckley, on a helicopter in Beirut on 
Christmas Eve. The Syrians were instrumental in that. The 
Syrians were also instrumental in holding those hostages, as 
was Iran and Hezbollah. So, their release didn't transform 
anything, didn't transform our relationship with Syria. Syria 
remained on our list of state sponsors of terrorism, as it 
should have.
    So, while what has happened in this past week, I think, is 
important, it is transactional.
    A broader point is that we are witnessing, in the midst of 
these hot conflicts, a Middle Eastern Cold War. The primary 
protagonists are Iran and Saudi Arabia. Iran is on the move, 
the radical Shiite militias it sponsors in Iraq, Hezbollah, 
working with the Revolutionary Guard, to support Assad in 
Syria. We need to stand clearly, not in the middle of this Cold 
War, we need to stand on one side of it. That, in my view, is 
with our traditional allies, Saudi Arabia and the other Gulf 
states, with Turkey, with Israel, with Egypt. We have 
differences with some of them, particularly with Saudi Arabia 
over Yemen, I think, but we have to take a stand here, Mr. 
Chairman. The Russians have taken a stand. They're all-in with 
Iran and with Bashar Assad. I think we all know they're not 
there to fight Islamic State. They don't care about Islamic 
State, nor does Iran. They care about shoring up Assad. So, 
that axis--Damascus, Tehran, Moscow--is perceived in the region 
as an anti-Sunni Arab axis. The more we don't take sides, the 
more we try to work with the Russians or the Iranians, the more 
that perception takes hold among the Sunni Arabs, the 
considerable majority of the population of that volatile 
region, and the more Islamic State can make hay out of it.
    So, I could go on at great lengths, but I won't. I would 
mention several specific steps I think we need to take:
    I would agree completely with General Keane on the 
importance of establishing a no-fly zone and safe zones. That's 
gotten infinitely harder now that the Russians are there. I 
still would like to see us pursue it. I would imagine this 
committee is heavily engaged with the administration on looking 
at its feasibility. It's important--like many military actions, 
it's important politically. It would signal to Sunni Arabs in 
Syria and beyond that we stand with them against the butchery 
of Bashar al Assad. He's killing far more of his own citizens, 
far more, than Islamic State is, and it's no surprise that 
moderate Sunni resistance groups in Syria are far more focused 
on Assad than they are on Islamic State. So, taking a stand 
against Assad, not to drive him from power--General Keane and I 
may differ slightly on this--but, to weaken him and to change 
the calculations in Damascus, in Tehran, and in Moscow as to 
what prolonging this conflict will achieve. Then, but only 
then, might we get to the table. We are not going to get to the 
table under these current conditions. I've talked to Iranians, 
I've talked to Russians in the Middle East. They're on a roll. 
They're not interested in trying to negotiate a transitional 
regime. So, we've got to change the facts on the ground. This 
would be one way to do it.
    There are several other things we could do to indicate 
we're serious. We have an anti-ISIS envoy, with whom I worked 
in Iraq. He should be a presidential envoy, he should speak for 
this administration, not for the Department of State. We should 
reinstitute the Deputy National Security Advisor, that General 
Doug Lute so ably filled during my time in Iraq, to coordinate 
an interagency effort against Islamic State. From a political 
perspective, I would argue we should--I know General Petraeus 
has made this point--we should move our headquarters from 
Kuwait to Baghdad. It made a heck of a lot of difference to me 
to have my military counterpart in the next room and not in the 
next country. These are small steps, some of them, but 
symbolically important, showing that we are in this fight, we 
are serious about it, we are going to work with our allies to 
develop the kind of comprehensive strategy that General Keane 
indicates is so important.
    So, I hope very much that, in the wake of the events of the 
last week, we will take a deep breath, understand where our 
long-term strategic interests are in the region, realize that 
the relationship with Iran is transactional. They are pursuing 
their agenda with full force. We need to define and pursue ours 
with equal force with our allies.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Crocker follows:]

            Prepared Statement by Ambassador Ryan C. Crocker
    Mr. Chairman, Senator Reed, Members of the Committee, I am honored 
to have the opportunity today to discuss United States policy and 
regional dynamics in the Middle East. I am especially pleased to do so 
in the company of such distinguished Americans as General Keane and 
Secretary Gordon. The modern Middle East took shape in the aftermath of 
World War I, some one hundred years ago. The region has seen much 
tumult over the past century, but there has never been a time of such 
turbulence and upheaval as we are witnessing now. Almost every state in 
the region has been touched with conflict. Syria, Libya, and Yemen are 
completely failed states. Iraq is on the edge if not over it, and 
Afghanistan is threatened. As bad as things are today, the trend lines 
all point down--it will be worse tomorrow.
    As states fail, non-state actors emerge. Islamic State and the 
various franchises of al Qaida are present through much of the region 
and beyond--Boko Haram and al Shabab in Africa, affiliates in Indonesia 
and elsewhere. Violent Shia militias are operating in Iraq and in 
Syria. Unlike Sunni terror groups, the Shia have a state sponsor--Iran.
    These developments have implications for global as well as regional 
security. As my friend and former wingman Dave Petraeus has said, what 
happens in the Middle East does not stay in the Middle East. Islamic 
State terror attacks in November in Paris are a horrific illustration. 
The worst refugee crisis since World War II affects more than the 
millions of refugees themselves. It has weakened the leader of one of 
our best NATO allies, Germany.
    The committee's invitation to testify noted a number of important 
topics. I will try to provide some perspectives on them.
    IRAN: This past week has been an extraordinary one for the United 
States and Iran. We witnessed the capture and release of American 
sailors, the implementation of the Joint Comprehensive Plan of Action 
(JCPOA), and an exchange of prisoners. There is speculation that after 
more than 35 years of hostility, our two countries might be moving 
toward a rapprochement that could reshape the Middle East. We are not.
    I support the JCPOA. It is not a perfect agreement, but a good one. 
The first steps have been taken; now we must turn to rigorous 
verification of continued Iranian compliance. At the same time, we need 
to bear in mind that it is a multilateral arms control agreement, not a 
treaty of friendship. I am reminded of the arms control agreements we 
negotiated with the Soviets in the 1980s. They made the world a safer 
place, but they had no impact on the broader confrontation between the 
free world and the Soviet Union--the evil empire.
    Similarly, we welcome the release of the American hostages and 
their return to their families. They never should have been held in the 
first place. In the early 1990s, I was the American ambassador to 
Lebanon when our hostages there came home. The Syrian Government played 
a significant role in their release, for which it was thanked. However, 
the Syrian Government, along with Iran and Hizballah, also had a 
significant role in their detention, and the releases did not transform 
the relationship. Syria remained on the list of state sponsors of 
terror.
    This is a transactional relationship, not a transformational one. 
As a former diplomat, I think it's good to have a number to call at 
critical moments. we have to be clear eyed about Iran's role in the 
region.
    We must vigorously confront malign Iranian activity in the region. 
In Iraq, Iranian support for vicious Shia militias, some of them 
commanded by individuals implicated in the murder of American 
servicemen, has weakened Prime Minister Abadi and deepened sectarian 
divisions. This has allowed Islamic State to take root and brought the 
Iraqi state to the point of failure. In Syria, Iran's Revolutionary 
Guards are fighting alongside Hizballah and Assad's forces as they 
murder Syrian civilians under Russian air cover and force millions from 
their homes. Nor should we think of Iran as an ally against Islamic 
State. Iran and its proxies along with Russia are in Syria to bolster 
Assad, not fight Islamic State. They are in Iraq to weaken the state 
and assert their own direct and indirect control. Islamic State is an 
excuse for the Iranians, not an enemy.
    There is a deeper issue at stake here. Overarching the many hot 
wars in the region is a Middle East cold war that pits Iran against 
Saudi Arabia. It is denominated in sectarian terms, Sunni versus Shia, 
but is also Arab versus Persian. I was recently in the Middle East and 
was struck by the extent to which many Arab friends perceive not only a 
Damascus--Tehran--Moscow axis that is anti-Sunni and anti-Arab, but 
also that the United States has tilted away from its traditional Arab 
allies in favor of Iran. We are absent in Iraq. We deconflict air space 
in Syria with the Russians. We bomb Islamic State targets in Sunni 
areas while doing nothing to prevent Assad from using his bombs to kill 
Sunni civilians. Perceptions are their own reality, and these 
perceptions are becoming dangerous for our broader interests.
    So in a chaotic Middle East that Iran has done much to make so, 
this is a time to make clear that we stand with our friends--Saudi 
Arabia and the Gulf States, Israel, Turkey, Jordan, and Egypt. All have 
important concerns over Iran and its behavior. We have differences with 
some, especially over Yemen, but this is a moment to forge a common 
cause. Iran has been pushing very hard in the region to advance its 
violent agenda. We need to push back. We have managed some important 
transactions with Iran, but it is not a transformation.
    ISLAMIC STATE, SYRIA AND IRAQ: Over 18 months after Islamic State 
fighters swept through much of Iraq and 15 months after the United 
States and others began launching airstrikes against them, Islamic 
State is certainly not defeated. It is barely degraded. It has lost 
some ground in Iraq but gained in Syria, including the city of Palmyra. 
50 Special Operations advisors working with predominantly Kurdish 
forces will not turn the tide.
    So what do we do? First, we must significantly ramp up coalition 
airstrikes against Islamic State. Recent targeting of Islamic State oil 
network is a good step, and it should be expanded. Simply put, we need 
to be all in with an air campaign that goes after their command and 
control and ability to conduct offensive operations. In short, to 
actually degrade the organization. To ultimately defeat Islamic State 
and end this terrible conflict, we need to change the political context 
and to understand that for many Syrian Sunnis, Assad is a far worse 
enemy than Islamic State. In Syria, I have argued for a no-fly zone in 
the north and south. It would be a clear message that we stand with 
Syrian civilians against the savage bombings by Assad of his own 
population and against those who back him in Moscow and Tehran. 
Depriving Assad of the ability to murder his own people from the air 
would not mean his defeat, but it could change his calculations as well 
as those of Russia and Iran, finally enabling a political process. It 
is an axiom that there is no military solution to the Syrian conflict. 
Military actions can shape the political environment. The Russian 
intervention did so negatively. A no-fly zone could reshape the context 
more favorably. According to the Institute for the Study of War, zones 
could be enforced without putting United States aircraft in Syrian 
airspace by a combination of Patriot and Cruise missiles and aircraft 
operating in Turkish and Jordanian airspace. With cooperation from 
these countries, no-fly zones could cover safe zones for civilians and 
serve as areas where face-to-face coordination with non-jihad 
opposition elements would be possible. Other measures would be to make 
the anti-Islamic State envoy a presidential envoy. This would 
demonstrate a seriousness of purpose on the part of the White House and 
give the envoy authorities he currently lacks. Reestablishing a deputy 
national security advisor to coordinate the anti-Islamic State campaign 
in Washington would serve the same end.
    I applaud the UN led effort to launch a political dialogue among 
Syrian factions. It will go nowhere as long as Assad and his outside 
backers think he is winning. For there to be any chance of a serious 
negotiation, conditions on the ground must shift.
    IRAQ: When I left Iraq in 2009, I could never have imagined how it 
looks today, even in my worst nightmares. During three decades in the 
Middle East, I learned two things. The first is be careful what you get 
into. Military interventions set in motion consequences to the 30th and 
40th order that can't be predicted, let alone planned for. The Soviet 
invasion of Afghanistan and the rise of militant Islam, the Israeli 
invasion of Lebanon and the rise of Hizballah, the American invasion of 
Iraq and the birth of al Qaida in Iraq. The second thing I learned is 
to be just as careful over what you get out of. Disengagement can have 
consequences as great or greater than those of the original 
intervention. In Iraq, we were not careful about either. Withdrawal of 
our forces and a virtual end to sustained political engagement in Iraq 
after 2010 did not end the war. It simply left the field to our 
enemies: Iran, its proxy Shia militias, and Islamic State. It is the 
coalition from hell: Iran and Islamic State do not seek each other's 
destruction; both seek the disintegration of a unitary Iraqi state into 
a Jihadistan, run by Islamic State, an Iranian dominated Shiastan, and 
a Kurdistan heavily influenced by Iran. This is a threat to U.S. 
national security.
    In Iraq as in Syria, there is no military solution to Islamic State 
threat. The political chasm between Sunni and Shia have given Islamic 
State the space to fester. Iran has worked to sharpen those divides; 
and virtual United States absence over the last four years has given 
Iran, its proxies, and Islamic State the scope to act, and they have. 
The U.S. needs to reengage, not with military force but with sustained, 
high-level diplomacy led by the President and the Secretary of State. 
For many reasons, Iraqi leaders find it extraordinarily difficult to 
make the political compromises necessary to foster a broad sense of 
inclusion among all of Iraq's communities. Iraqis cannot make the 
necessary deals on their own, but the United States can serve as an 
effective broker. We have done it before. Only when Iraqi Sunnis feel 
they have a secure and equitable place in the Iraqi state will the 
ultimate defeat of Islamic State be possible.
    It is perhaps no coincidence that the most chaotic period in the 
history of the modern Middle East is also a time of the greatest United 
States disengagement since we stepped onto the regional stage after 
World War II. We certainly cannot fix all the problems of the Middle 
East. United States leadership can make a difference. Our friends in 
the area are looking for us to lead and bear the consequences of our 
perceived lack of involvement. Without a larger U.S. role, an already 
impossible situation will only get worse. It will come home to us.

    Chairman McCain. Thank you.
    Mr. Gordon, welcome.

  STATEMENT OF HONORABLE PHILIP H. GORDON, SENIOR FELLOW, THE 
COUNCIL ON FOREIGN RELATIONS, AND FORMER ASSISTANT SECRETARY OF 
            STATE FOR EUROPEAN AND EURASIAN AFFAIRS

    Mr. Gordon. Thanks very much, Senator, Ranking Member Reed, 
and all of you, for having me back before the committee. I'm 
honored to be here, and honored to testify along with my two 
distinguished colleagues.
    Senator, given the vastness of the topic, I submitted a few 
articles in more detail. I'd like to ask that they be put in 
the record----
    Chairman McCain. Without objection.
    Mr. Gordon.--thank you very much--so I can just use my time 
here to make three broad points about the region.
    The first is that the Middle East today--maybe it goes 
without saying--is going through a period of powerful tectonic 
change that the United States did not create and cannot fully 
control. In the wake of the Arab Spring in 2011, the state 
institutions have crumbled in Syria, Libya, Yemen, and 
elsewhere. I think if we're honest, we have to acknowledge that 
those institutions are unlikely to put--be put back together 
anytime soon. On top of that, you have sectarian tensions that 
are rising across the region. Obviously, this issue has 
persisted for decades or centuries. It got a boost by the 
Iranian Revolution in 1979. It got a further boost by the 2003 
Iraq War, which gave Iran much more say in Iraq, and has 
prompted a Sunni response. Even in the past years, I think, 
even more than those two developments, the result of the Arab 
Spring, where the question of state institutions and control is 
up in the air, has created space for even more sectarian 
tensions. Just last week, obviously, we saw those tensions 
inflamed further with the Saudi execution of a prominent Shiite 
cleric, and Iran's violent response.
    So, the Saudi-Iranian rivalry is a geopolitical conflict 
that is on top of a sectarian conflict. As long as it persists, 
the biggest conflicts in the region--in Iraq, in Syria, and 
Yemen--that have a sectarian content will be enormously 
difficult to resolve.
    We should also remember, on top of that, that the Sunni 
population across the Middle East is, itself, deeply divided. 
Sunni terrorist groups, such as al Qaeda and ISIS, of course, 
are Sunnis aligned against Sunni regimes; and the Sunni 
regimes, themselves, are deeply divided between those who 
embrace political Islam, such as Turkey and Qatar, and those 
that are threatened by it, including Saudi Arabia, Jordan, 
United Arab Emirates, and Egypt under President al Sisi, as 
Egypt is--itself, is divided down the middle on this topic.
    So, even though most Sunni majority states stand together 
when it comes to sectarian conflicts, like Iraq and Syria and 
Yemen, where the Sunni states are all aligned together, when 
you face conflicts in places without a sectarian dimension, 
like in Libya or Egypt, the Sunni states divide among 
themselves, and you get Turkey and Qatar on one side, and the 
others on the other.
    Now, I mention all of these points and complexities at the 
beginning, not to suggest that the region is so complex and 
unstable that there is nothing we can do, but to underscore the 
enormity of the challenge we face and, frankly, the need for 
humility as we consider our policy options. We should be 
extraordinarily careful about assuming there are quick fixes to 
any of these regions' problems and very cognizant of the 
potential for unintended consequences of the actions that we 
take. I hope--and I expect we'll talk more fully about that 
during the hearing.
    My second main point is that, in the context of this 
immense regional turmoil, the implementation of the Iran 
nuclear agreement last week buys valuable time and presents a 
real opportunity if we use that time wisely. As everybody here 
knows, when the United States initiated the talks with Iran in 
early 2013, Iran was essentially on the threshold of a nuclear 
weapons capability. Now, with the mothballing of two-thirds of 
its centrifuges, the shipping out of 97 percent of its low-
enriched uranium stockpile, the ending of its production of 20-
percent uranium, the wholesale redesign of the heavy water 
reactor at Arak, which would have, by now, been capable of 
producing enough weapons-grade plutonium for one or two bombs 
per year, and the setting of an intrusive inspections regime, 
we are no longer faced with the terrible choice between using 
military force to set back the program for a couple of years, 
less time than it has now been set back by the agreement, or 
effectively acquiescing to its further development.
    None of this is to say, let me be clear, that the nuclear 
deal somehow solves the Iran problem. Even proponents of the 
JCPOA, of which I am one, should admit that, in some ways, it 
makes the problem worse. We've heard some of the consequences 
referred to here, including the concerns about the long term 
and the concerns of some of the key players in our friends in 
the region. Those are real, and I think we should acknowledge 
them. An Iran that gains access to more than $50 billion of its 
frozen assets abroad and starts to increase oil sales will be 
an Iran that can devote more resources to nefarious activities 
in the region. I think the right response to these realities is 
not to deny them, and it's not to scrap the nuclear deal, 
because doing so would isolate the United States, impede our 
ability to impose effective sanctions, and, frankly, leave us 
with no good options for stopping the Iranian nuclear program. 
Think about North Korea, which was in the news just the other 
day, the other week, for its testing of a nuclear weapon. Think 
about that situation, where we, indeed, isolated, sanctioned, 
contained, but the result is not a non-nuclear North Korea; 
it's a crazy dictatorship with its hands on numerous nuclear 
weapons and a real paucity of potential U.S. responses. That's 
why I think we're in a better position with the JCOP--JCPOA in 
Iran.
    The alternative, again, is not to deny these problems, but 
instead to rigorously enforce the deal, to use all of the tools 
at our disposal to confront and contain Iran in the region, and 
to use the valuable time that it buys us to cautiously explore 
whether a better relationship with Iran is possible in the long 
term. Again, I hope that's something we can discuss during this 
hearing.
    My third and final point concerns the war in Syria. My 
bottom line is that we have an enormous national interest in 
prioritizing the de-escalation of this conflict, even over 
other important objectives. You really need to think through 
the strategic consequences of the status quo. The conflict in 
Syria is killing or maiming hundreds of thousands of people, 
innocents, forcing millions of Syrians to flee their homes, 
destabilizing neighboring states--Lebanon, Jordan, Iraq, 
Turkey--radicalizing an entire generation of young Muslims, 
provoking a far-right backlash in Europe and problems within 
the European Union, fostering religious intolerance in the 
United States and beyond. Given these enormous strategic costs, 
I think you could say that almost any peace in Syria at present 
would be better than the current war.
    To reach this objective, I believe it is necessary to 
decouple our attempts to reach a comprehensive political 
settlement in Syria, one that includes Assad's immediate 
departure, from our objective of negotiating a nationwide 
cease-fire. While we all like to see the immediate departure of 
Assad and his cronies, who should face justice for their 
atrocities, and we'd like to see the installation of an 
inclusive moderate regime, there is almost no prospect for 
near-term agreement on a--new detailed institutional 
arrangements in Syria, let alone on new leadership. I think we 
have to be honest about that. The delay just--or the probable 
delay this week in the Syrian talks that were scheduled for the 
25th of this month is, thus, disappointing, but, I think, not 
surprising.
    Now, I know some argue--and we've heard previews of that 
today, and I suspect we'll discuss it--that we can produce the 
political transition in Syria that we seek by providing more 
military support to the opposition, or even by intervening 
military, ourselves. However, given the strong commitments by 
Russia and Iran to support the regime, which also maintains 
significant support among Syria's minorities and even in the 
majority Sunnis, I think that such an escalation would lead not 
to the regime's capitulation that we want to see, but rather to 
a new counter-escalation, which, after all, has been the 
pattern for nearly 5 years. We shouldn't underestimate the 
degree of force it would take to displace the regime. Again, 
that's what we're talking about. We're not talking about modest 
concessions by the regime; we're talking about it agreeing to 
disappear. I don't think we should underestimate what it would 
take to do so or the unintended--potential unintended 
consequences of doing so.
    As an alternative, I've put forward a plan, along with two 
colleagues in the RAND Corporation--Jim Dobbins and Jeff 
Martini--it's one of the publications I submitted for the 
record--to seek a nationwide cease-fire in place that would 
defer the ultimate disposition of political power in Syria, 
including the question of Assad's fate, and include the 
creation of regional safe zones, based roughly on current areas 
of control within the country, the resumption of humanitarian 
deliveries, prisoner releases, and the collective focus on 
destroying ISIS.
    I will be the first to admit that even this outcome would 
be enormously difficult to achieve and would not be without 
downsides and risks. I think that applies to any proposal for 
the Syrian conflict. I do believe it is a more realistic goal 
than the current one of a comprehensive political agreement. I 
think it's far better than the status quo. I think it's more 
practical than any of the available alternatives. I fear that 
if we just persist with the status quo, we could have--be 
having a hearing in 1 year, 2 years, or 4 years, and be talking 
about even greater strategic consequences of this conflict.
    Thank you very much, Mr. Chairman. I look forward to 
discussing these questions.
    [The prepared statement of Mr. Gordon follows:]

                 Prepared Statement by Philip H. Gordon
    Mr. Chairman, Ranking Member Reed, Members of the Committee,
    Thank you for the opportunity to testify before the Committee today 
about United States strategy and policy in the greater Middle East. I 
shared in advance with the Committee several recent articles that 
address some of these issues in some detail and respectfully request 
that they be submitted for the record. In my opening statement I would 
simply like to make three broad points about the region.
    First, the Middle East today is going through a period of powerful, 
tectonic change that the United States did not create and cannot fully 
control. In the wake of the ``Arab Spring'' in 2011, state institutions 
have crumbled in Syria, Libya, Yemen, and elsewhere, and those 
institutions will not be put back together again. In addition, 
sectarian tensions across the region are now deeper than they have been 
for decades. Just last month, these tensions were enflamed by Saudi 
Arabia's execution of a prominent Shiite cleric and Iran's violent 
response. The Saudi-Iranian rivalry is a geopolitical conflict on top 
of a sectarian conflict, and as long as it persists, the biggest 
conflicts in the region--In Syria, Iraq, and Yemen--will be enormously 
difficult to resolve. We should also remember that the Sunni population 
across the Middle East is itself deeply divided. Sunni terrorist groups 
such as al Qaeda and ISIS are aligned against Sunni regimes, and the 
Sunni regimes themselves are deeply divided between those who embrace 
political Islam such as Turkey and Qatar, and those threatened by it, 
such as Saudi Arabia, Jordan, the United Arab Emirates, and Egypt under 
President al Sisi. Thus even though most Sunni majority states stand 
together in sectarian conflicts such as Iraq, Syria, and Yemen, they 
are at loggerheads in Sunni-majority countries such as Libya and Egypt.
    I mention all these points at the start not to suggest that the 
region is so complex and unstable that there is nothing we can do, but 
to underscore the enormity of the challenge we face and the need for 
humility as we consider our policy options. We should be 
extraordinarily careful about assuming there are any quick fixes to the 
region's problems, and very cognizant of the potential for unintended 
consequences of any actions that we do take.
    My second main point is that in this context of regional turmoil, 
the implementation of the Iran nuclear deal last week buys valuable 
time and presents a real opportunity if that time is used wisely.
    When the United States initiated the secret nuclear talks with Iran 
in early 2013, Iran was essentially on the threshold of a nuclear 
weapons capability. Now, with the mothballing of two-thirds of its 
centrifuges, the shipping out of 97 percent of its low-enriched uranium 
stockpile, the wholesale redesign of its heavy-water reactor (that 
could have produced enough weapon-grade plutonium for one to two bombs 
per year), and the setting-up of an unprecedented inspections regime, 
we are no longer faced with the terrible choice between using military 
force to set back the program for a couple of years or effectively 
acquiescing to its further development.
    This is certainly not to say that the nuclear deal somehow 
``solves'' the Iran problem, and even proponents should admit that in 
some ways it makes that problem worse. An Iran that gains access to 
more than $50 billion of its frozen assets abroad and starts to 
increase oil sales will be an Iran that can devote more resources to 
nefarious activities in the region. The right response to this reality 
is not to scrap the nuclear deal--which would only isolate the United 
States, impede our ability to apply effective sanctions, and leave us 
with no good options for stopping the Iranian nuclear program (much 
like the situation with North Korea)--but instead to rigorously enforce 
that deal, use all the tools at our disposal to confront and contain 
Iran in the region, and use the valuable time bought by the nuclear 
deal to cautiously explore whether a better relationship with Iran is 
possible over the longer term.
    My third and final point concerns the war in Syria. The bottom line 
is that we have an enormous national interest in prioritizing a de-
escalation of the conflict. The conflict in Syria is killing or maiming 
hundreds of thousands of innocents, forcing millions of Syrians to flee 
their homes, destabilizing neighboring states, radicalizing an entire 
generation of young Muslims, provoking a far-right backlash in Europe, 
and fostering religious intolerance in the United States and elsewhere. 
Given these enormous costs, almost any peace in Syria would be better 
than the current war.
    To reach this objective, I believe it is necessary to de-couple our 
attempts to reach a comprehensive political settlement in Syria--one 
that includes Assad's departure--from our objective of negotiating a 
nation-wide ceasefire. While we would all like to see the immediate 
departure of Assad and his cronies, who should face justice for their 
atrocities, and the installation of an inclusive, moderate regime, 
there is almost no prospect for near-term agreement on new detailed 
institutional arrangements in Syria, let alone new leadership. The 
cancellation of the planned Syria talks later this week was thus 
disappointing, but not surprising.
    I know many, including some members of this committee, argue that 
we can produce that political transition in Syria by providing more 
military support to the opposition, or even by intervening militarily 
ourselves. However, given the strong commitments by Russia and Iran to 
support the regime, which also maintains significant support among 
Syria's minorities and even many majority Sunnis, I fear such an 
escalation would not lead to the regime's capitulation but rather a new 
counter-escalation, which, after all, has been the pattern for the past 
nearly five years.
    As an alternative, I have put forward a plan along with two 
colleagues from the RAND Corporation, Jim Dobbins and Jeff Martini, to 
seek a negotiated, nation-wide ceasefire-in-place that would include 
deferring the ultimate disposition of political power in Syria, 
including the question of Assad's fate, and the creation of regional 
safe zones based roughly on current areas of control within the 
country, the resumption of humanitarian deliveries, prisoner releases, 
and a collective focus on destroying ISIS. I'll be the first to admit 
that even this outcome would be enormously difficult to negotiate and 
not without downsides and risks. I believe it is far more realistic 
than the current objective of a comprehensive political agreement, far 
better than the status quo, and more practical than any of the 
available alternatives.
    Thank you for the opportunity to share these ideas with you and I 
look forward to the discussion.

    Chairman McCain. Well, thank you very much.
    I want to thank the witnesses, all the witnesses, because--
and I wish that--I wish the American people and all Members of 
Congress could have heard that testimony and the discussion 
that we're about to have. Obviously, it is a transcendent and 
now direct threat to the United States of America, as evidenced 
in San Bernardino and other places. I think there's--it's a 
very complex situation and one that requires a lot of 
understanding. I respect the views of all the witnesses.
    Ambassador Crocker, I especially am grateful for your 
incredible service, as well as other witnesses, but I will 
never forget your testimony before this committee, with General 
Petraeus, at a very crucial time in American history.
    On the issue of how we take care of ISIS, before I get into 
Syria, there are many of us that have been advocating for a 
long time an additional several thousand in Syria--in Iraq to 
retake Mosul, beat back ISIS, and--including elements of 
airpower. In addition to that, the force of--mainly composed of 
Sunni Arab countries, including Turkey and Saudi Arabia and 
others, with the avowed intention not just of defeating ISIS, 
but also replacing Bashar Assad, we have proven to anyone's 
satisfaction that if the object is only ISIS, you're not going 
to find more than 4 or 5 young men who are willing to fight. 
That was the testimony before this committee. There is 
question--I think it was all members--what's our priority, and 
should we try to assemble that force to go to Raqqa and take it 
out? I think it's pretty obvious that, in Raqqa today, they are 
developing chemical weapons, that we've seen films that they've 
published of bomb factories. They are directing acts of terror 
throughout the world using the Internet. As long as Raqqa 
remains in ISIS hands, then we--they are going to be able to 
foster terrorism throughout the entire world. At the same time, 
we're seeing a situation evolved--and I mentioned in my opening 
statement this morning--that Russian airpower is having an 
effect of reducing any capability we might have to prevail on 
the battlefield, thereby hardening the position of Bashar Assad 
in power, who is the godfather of ISIS. The--it's a very 
complex situation that's evolved over the years. Maybe the 
witnesses can help us out--sort out this Gordian--cut this 
Gordian Knot that seems to plague our decision makers. Maybe 
beginning with you, Ambassador Crocker.
    Ambassador Crocker. Thank you, Mr. Chairman. You have 
outlined, indeed, the complexity of what is truly a problem 
from hell.
    We have never really seen the formation of a collective 
Arab combat force. Arab armies have fought against Israel--
1948, 1967. Didn't go well. There was an effort to create an 
Arab deterrent force in Lebanon in the 1970s, during that civil 
war, that quickly became a purely Syrian force; the other 
states withdrew their contingents. So, I am--my expectations 
are under control, let me put it that way, that it would be 
possible to build and field such a force, certainly not without 
very substantial U.S. engagement. I think that that would be 
key. Then we'd have to ask ourselves, since Islamic State has 
said repeatedly in its propaganda, ``The Crusaders will come, 
and we will destroy them,'' whether that would be a further 
rallying cry for them and their recruiting. We would have to 
think that through, which is why I started with something 
incredibly difficult, but maybe a bit easier: the notion of a 
no-fly zone. General Keane may want to speak to the feasibility 
of that. I mean, I'm just a civilian; I don't know.
    In terms of shifting the dynamic, not eliminating the 
regime, but weakening it, stopping a humanitarian slaughter, 
and signaling to Sunnis in Syria, as well as outside, that we 
stand with them--because right now I don't think they're 
persuaded. To get support, in Syria or in the region, for an 
effort against ISIS, we're going to have to deal with what is 
the number-one threat, which, in Syria for the Sunnis, is 
Assad, and, in the region, it's Iran, backed by Russia. So, 
we're going to have to stand up to those forces, and show we 
mean it, before I think we're going to get any serious traction 
for a serious Sunni effort in Sunni or, for that matter, in 
Iraq.
    I see my time is up.
    Chairman McCain. The Russians?
    Ambassador Crocker. Yes, sir. The Russians are in Syria for 
one reason only; that is to support Bashar al Assad. They talk 
the talk about confronting Islamic State. We all see the 
reports of who they're actually hitting. Islamic State doesn't 
really threaten Assad. I think they have almost a tacit 
understanding to pretty much leave each other alone. It's the 
groups that we would like to support, should support, that are 
really locked in with Assad, who are bearing the brunt of 
Russian airpower. So, they're all-in on this, they're all-in 
against us. We're not doing anything to demonstrate to anyone 
that we're pushing back.
    General Keane. Yes. Well, those are great questions, 
Senator, and I agree with much of what the Ambassador said.
    Let's start with Syria and then come--go to Iraq, because 
Syria is ISIS center of gravity. What they're doing in Iraq is 
occupying Sunni lands. In Syria, is--it's from Syria that 
they've expanded into those affiliates I've described on those 
maps, and it's from Syria that they're creating a worldwide 
following to kill their fellow citizens to foment disagreement 
between Muslim and non-Muslim populations.
    So, Syria truly matters and, in military terms, they're the 
center of gravity, but it's also a much more complex problem. 
When you talk to leaders, Sunni leaders, unequivocally they 
will tell you that Iran is their number-one problem. That is 
their issue. That's why that--I put that map up there, because 
sometimes a visual picture tells an incredible story of 
what's--their concern is. That is their number-one existential 
threat to the stability and security of their nation. ISIS is a 
threat, make no mistake about it; but, it is second.
    So, when you enter into a discussion with them about, ``We 
want to do something about ISIS in Syria, and we're going to 
need your forces to do it,'' they said what they will do is 
defer that and come back with, ``We have to do something about 
Assad first. We have to get--do something about Assad.'' Assad 
is being propped up by the Iranians, and it's a client state of 
Iran, which ties to their overall stability and security 
concern.
    That is why the Ambassador and I both agree that, while 
there are no per se military solutions to Syria, military 
solutions do--military action does play a role in getting 
political solutions. It always has, since the beginning of 
time. Our thought is that it's reasonable to establish safe 
zones and no-fly zones to turn the momentum against the regime.
    Now, listen. The regime is, by no means, 10 foot tall. This 
is an organization that used to be 220,000. It's about 100,000, 
with a high desertion rate, low morale. The equipment isn't 
working very well. They've had--they've been narrowed down to--
21 percent of Syria is what they control. After a 4-year civil 
war--the initial year, they nearly lost the war to the rebels. 
If you remember that. So, that's what brought all the Iranians 
in, and the 5,000 Hezbollah, over 8,000 Iraq Shiite militia, 
the Quds Force, Qasem Soleimani on the ground, because they 
were about to lose the state. That was 4 years ago. Turn back 
to last year. Unbeknownst to many--we were tracking this daily 
at ISW--the rebel forces--and, admittedly, Jabhat al Nusra is 
powerful in this--but, so is the CIA-trained rebel force that 
we can't talk about, in terms of numbers and all the equipment 
that they have, but that also was a powerful player on the 
battlefield. They put this regime in a precarious situation, so 
much so that the Iranians made multiple visits to the Russians 
to convince them, while a nuclear deal is ongoing, that, ``We 
have got to take some action.'' I think they waited until that 
nuclear deal was almost finalized, and the Russians put their 
base into Syria this summer, for one reason only, because even 
the Alawite enclave at Latakia provinces was being threatened, 
and that would force the collapse of the regime.
    So, here's the rebel forces, 4 years later, actually 
putting that kind of pressure on the regime. The Russians 
thought this was going to be easy. It hasn't been. They began 
striking, September 30th. Months later, they've been making 
some progress. They will eventually wear down these rebels, and 
they will be an enclave established and a security buffer for 
the regime. There is no intention, and not possible, for the 
Syrian military, assisted by Russians and the Iranians, to 
reclaim Syria. That is not happening. All they can get is a 
security buffer for themselves. That is it. They may go to 
Palmyra, which will take considerable force generation to do 
that, to open up the lines of communication there, and also 
because of the significance that Palmyra has in world opinion, 
but that's it.
    So, military action in turning momentum against this regime 
still--fortunately, still has a practicality of its own if you 
shut down airpower and establish no-fly zones. That then can 
move to some kind of transition of power. I'm not saying 
Assad's got to go tomorrow. We have to not give up on the plan 
that Assad must go, because there's no way that the rebels are 
going to stop fighting until you get some promise that this 
regime is going to go, after 250,000 dead and many of their 
families displaced. These are pretty tough fighters, and 
they're not giving up on what they've been trying to achieve 
for 4 years.
    In Iraq--Iraq, a different situation, but the political 
component in Iraq is paramount importance. We need to have--we 
need to deter the influence that the Iranians have with this--
with Prime Minister Abadi. I say Ambassador Crocker is the 
answer. He says other people are the answer, but--we're after 
the same goal. The goal is political unity.
    I'm frustrated, here, because we spent so much time on this 
nuclear deal, we should have been in and out of Baghdad with 
high government officials, Secretary of State on the ground 
routinely working with this new administration to achieve the 
political unity that the United States said was their political 
objective. We're not even close to achieving it. The Kurds are 
still looking for money, and they're still looking for the 
weapons that they need. We're not even close on the tribal 
force that we need from the Sunnis. ISIS is occupying Sunni 
lands exclusively. The Kurds have been able to retake their 
territory back. Therefore, you need, common sense tells you, 
Sunni tribal force to be able to hold the territory even if the 
Iraqi army was able to reclaim it. Without that, it's not going 
to happen.
    So, that--and that's why I've said you've got to put more 
advisors, more trainers in there; you have to have air 
controllers on the ground; you've got to up our ante 
considerably to convince the Sunnis that we're serious about 
this and move the political situation in that direction, as 
well. Then you start to get some answers, in terms of how 
you're really going to take Mosul.
    Chairman McCain. Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman. I agree with the 
others, that you summarized the challenges and complexities 
very well. A lot has been said, but maybe I'll just pick up on 
two or three of the points.
    Your first point, Mr. Chairman, about 1,000 more troops for 
Iraq or what else we could do, I think there are serious 
legitimate military things that we can and should be looking at 
to strengthen our ability to deal with ISIS in Iraq. There 
are--they usually come in the categories of more joint tactical 
air controllers, spotters, more accompany missions with the 
Iraqis, more Special Operations Forces. I----
    Chairman McCain. Even Apache.
    Ambassador Crocker. Apaches, absolutely. The question in 
each of those is just the balance of benefit versus risk. There 
are risks, and there are risks of Americans dying on the 
battlefield or being captured. I think if the military advisors 
on the ground think that there would be a significant benefit 
from those additions, they should absolutely be made, because, 
as you, I think, suggested, retaking Mosul, or some big 
accomplishment like that, would do a lot. Someone asked earlier 
about the propaganda campaign and the messaging--a visible 
defeat for ISIS on the ground, like in Ramadi but followed by 
Mosul, would be important. I think that cost-benefit should 
absolutely be assessed, and potentially revised.
    On the question of Raqqa, and taking Raqqa and taking 
territory directly by the United States, there--again, I think 
it goes without saying that we have the military power to do 
that alone, if necessary. The question there is, Would the 
benefit of doing so outweigh the costs and consequences? Here's 
one of the sort of unintended-consequences areas that I was 
referring to. You know, one is, of course, the whack-a-mole 
problem, where you could take ISIS control of Raqqa, but if the 
same fighters and commanders and terrorists move to Deir al Zor 
or Mosul or Aleppo, then you've sort of displaced the problem 
and you've got 10-, 20-, 30,000 American troops on the ground 
as a recruiting poster for ISIS without really having dealt 
with the problem. I am at least as skeptical as Ambassador 
Crocker about the prospects of an Arab force doing this for us. 
It has been on the table for some time, and we actually tried 
to work with the Saudis and others to create it. Let's just say 
they're a long way from being able to deliver. I mean, look at 
the situation in Yemen, where you actually do have a coalition 
of more than 10 Muslim countries, Arab countries led by the 
Saudis, willing to support and fight with the Saudis, but no 
ground force, no ability or political willingness to deploy 
that ground force in Yemen--and that is, you know, just Yemen--
let alone an ability of these forces to go into Syria or Iraq. 
So, I think we should be really cautious in assuming that we 
don't have to do it, we'll get some Arab force to do it for us.
    Finally, but maybe most centrally, because I think most of 
us agree that Syria is at the heart of all of these questions, 
I am more skeptical than others that modest military steps will 
lead to the political settlement that we would all like to see. 
Whether it's more Special Forces or a no-fly zone, again, 
politically, I think we have to recall, we are not talking 
about a compromise from the regime, we're not talking about a 
goal of getting it, quote/unquote, ``to the table.'' We're 
talking about getting rid of it and raising all sorts of 
questions, among those who support it, about their future 
livelihood. So, I think we should not underestimate what it 
would take, or assume that a modest amount of greater support 
to the opposition--again, the reason I think we know that is, 
it's what we've been doing for almost 5 years. There have been 
significant amounts of arms and support that have gone to the 
opposition, and the result has been a doubling down by Iran and 
Russia. We should acknowledge that to deal with it, we would 
have to directly confront them and apply, I think, a lot more 
military force than has really been considered.
    Chairman McCain. Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Thank you, gentlemen.
    Let me, first, start with Ambassador Crocker and thank you 
again for your extraordinary service in so many different ways. 
The issue of a no-fly zone implies, at least to me, the 
cooperation of an adjacent country. There are only really two: 
Jordan and Turkey. The impression I have--and it's just an 
impression--is that the Jordanians feel they have a sort of de 
facto no-fly zone because they've worked out an arrangement in 
the south that their border is not subject to aerial attack, 
more or less. The Turks, though, are the most problematic. In 
fact, their behavior sometime is totally unpredictable in what 
they've done in Iraq with sending troops there, and what 
they've done in terms of helping or not helping us to close the 
last 50 or 60 kilometers on their border. So, can you--what is 
the feasibility of a no-fly zone if you get limited or 
unenthusiastic buy-in by the Turks, as it seems to be the case 
right now?
    Ambassador Crocker. It's a great point, Senator. No-fly 
zones north or south, or both, would have to have the full 
support of Jordan in the south, Turkey in the north. Not going 
to work, otherwise. Again, General Keane is far more competent 
than I to speak of it. We would--we'd have to enforce a no-fly 
zone in the air from Turkish airspace, and probably from 
Patriot missile batteries in Turkey. So, they'd have to do it.
    Now, the Turks have said, and have--they've been saying, 
for some time now, that they favor a no-fly zone and a safe 
zone. I certainly would like to call that bluff, if indeed it's 
a bluff. They have said publicly, recently, that they would 
like to work with us on support for non-ISIS Arab fighters to 
take care of that gap. I'd like to explore with them putting 
the two together, doing both.
    Again, do I think this is easy? Obviously not. I'm not even 
sure it's possible. As we look at a horrific landscape out 
there and the politics inside Syria and in the region that make 
it highly unlikely there is going to be any sustained effort by 
anyone against Islamic State under the current dynamics, I 
think we have to seriously look at it.
    Senator Reed. Mr. Gordon, your comments before I call on 
General Keane.
    Mr. Gordon. Yeah. I think--I mean, first of all, the 
humanitarian situation is such that we should constantly review 
whether there's anything we can do to stop the airpower being 
used. So, it should absolutely be on the table, and has been on 
the table, and we've looked at it, when I was still in the 
administration, constantly. Beyond that, I would say three 
things:
    First, you would have to think about where you're doing the 
no-fly zone. Often, people who support it limit it to just the 
sort of northeast of the country or maybe a sliver on the 
north, a sliver in the south, to avoid coming into direct 
conflict with the regime and the Russians and the air defenses. 
If you only put it in areas where the regime is not really 
flying anyway, it would obviously have limited effect. 
Obviously, it doesn't work against ISIS, because ISIS doesn't 
have airpower, and the regime is not significantly flying in 
those parts of the countries. To really have a significant 
effect on refugees and humanitarian, you'd have to put it much 
further west, including over places like Aleppo, and then you 
get into--if you're going to do that, then you have to possibly 
take out air defenses. You have what is now really a huge 
problem with the Russians. That, in turn, has--to get to your 
specific question about Turkey--been the problem with the 
Turks. Because, again, when I was still in the administration, 
we spoke extensively with Turkey and tried to figure out a way 
to do it together. Their insistence was that it cover Aleppo 
and beyond, which--and, not surprisingly, because they actually 
had an interest in us getting into a direct military conflict 
with the regime. The slippery slope that many here were 
concerned about was their objective, in some ways, that we 
would have to take out air defenses, they might challenge it, 
that would make the regime weaker, and then we would be in 
conflict with the regime.
    Last point, because I think it's essential, is, What are we 
trying to accomplish with it? I am skeptical--again, I--if 
there's a way to do it that protects people and helps the 
humanitarian situation, great--I am skeptical that it really 
gives us leverage that leads to Assad's departure. If that's 
the goal, it seems to me unlikely that, even if we did it, the 
Russians and the Iranians would somehow come around to the view 
that maybe they should get rid of Assad after all.
    Senator Reed. Amen.
    Chairman McCain. You'd think that after 250,000 killed, Mr. 
Gordon, that you would--might consider it seriously.
    Senator Sessions.
    Senator Sessions. Well, on the no-fly zone, Ambassador 
Crocker, you indicated that we don't focus--I mean, we need to 
consider the political ramifications. What's happening to 
Europe as a result of refugee flows is just incredible. Three 
senior European officials told me the European Union is 
threatened by this, the very existence of it. Would you agree 
that it has the--I think perhaps the military is a little less 
focused because they're not recognizing the enormity of the 
political danger.
    Ambassador Crocker. It's a great point, Senator. The--what 
we're watching with the refugee flows is worse than at any time 
since World War II. Far worse. It isn't a regional problem, it 
isn't a European problem; it's a global problem. It's falling 
on the region--obviously, the Syrians, themselves, but Turkey, 
Lebanon, and Jordan with enormous refugee populations, and, as 
you say, in Europe, where the European Union, as a political 
construct--not an economic, but a political construct--is 
threatened. We have seen, in Germany, which I consider one of 
our strongest NATO allies under Angela Merkel, she is now--she 
has now been weakened by this, by trying to do the right thing. 
So, taking steps in Syria that can save lives and reduce the 
flows of people out of Syria, I think, is--it's an imperative. 
It's a humanitarian issue, but it's also a political issue. So, 
it's using military assets for political and humanitarian 
purposes.
    I just--I wish we could get on with it. There are obviously 
very complex questions as to how far you have to go to make a 
difference. I'm all for taking out his air defenses. You know, 
this is not going to take us to total war. If that's what is 
required, you know, we should look at it. Again, I'm in that 
delightful position of total irresponsibility, since I 
represent nothing but myself, but I think these are questions 
for the administration, for Congress, and particularly for this 
committee to look very, very seriously at.
    Senator Sessions. General Keane, I have felt the difference 
in North Korea after they got a nuclear weapon than before. I 
mean, they were in a position where they could be defeated. Now 
they're in a position to lob bombs into Seoul, at least, if not 
the United States. So, isn't it difficult to under---to over-
estimate the danger to the region of a nuclear-armed Iran? 
Isn't that an enormous event, if Iran gets nuclear weapons?
    General Keane. Yeah. Absolutely, because--listen, it'll 
lead to the nuclear proliferation in the Middle East. I mean, 
the Middle East will just go nuclear. I'd take heed of 
Secretary Kissinger's warning that he believes Iran with a 
nuclear weapon is the most calamitous event in his lifetime, in 
terms of its threat to global security, because it would likely 
lead to the first nuclear exchange ever.
    Senator Sessions. I think it's just--it's enormous.
    General Keane. Certainly. That's--and I think there's 
common ground on that. I mean, nobody wants to have Iran 
acquire a nuclear weapon, with the issues we've all been 
arguing over. What's the best method to stop that from 
happening?
    Senator Sessions. Secretary Kissinger indicated that if 
they're within months of it, that that creates instability in 
its own----
    Ambassador Crocker, let me just ask you something that you 
raised that's hugely important. Maybe I'll just ask you to 
explain a little more about it. You say we need to take sides, 
and--we need to take sides with our traditional allies; 
basically, the Sunni states. There are those who believe Iran 
can somehow be brought in from the cold. It's a revolutionary 
regime. If we could just get the Shiite Persians to moderate, 
the world would be better and we could transform the Middle 
East. How do you evaluate that situation, please?
    Ambassador Crocker. Senator, it is both a series of hot 
wars and a cold war. The Iranians have taken sides with the 
Russians and with Assad in Syria. That is not the side we want 
to be on. They've taken sides in Iraq, with the Shiite 
militias, who, as we sadly remember, just like ISIS, kidnapped 
and executed Americans, 2007. These are the guys the Iranians 
are supporting. So, they've taken a side. The Russians in Syria 
have taken a side. We need to be clear that we stand against 
this and that we stand with our allies.
    You know, Saudi Arabia, yes, we have differences. There's 
no doubt. Saudi Arabia has been kind of the bedrock of our 
regional security policy since FDR met Ibn Saud on the deck of 
the Quincy in 1945. This is unraveling. This--the Saudis went 
into Yemen without consulting with us. They us a little bit in 
advance, but they didn't consult on it. From my generation of 
Near East hands, that's unthinkable. So, we have got to shore 
up those relationships. You start with your traditional 
friends, then you move to your adversaries, not the other way 
around.
    I hope that gets at your----
    Senator Sessions. Thank you. It's an important question.
    Chairman McCain. Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    Thank all of you. You bring a tremendous amount of 
experience and wisdom to the table, and we really appreciate 
that. I think it seems like the more we hear, the more confused 
it becomes in how we--of how we approach this.
    I'm concern about, basically, since 9/11, you know, and 
that's basically the start of what most people think, in 
America, started our engagement over in that area. Now, I'm 
sure it started many, many, many, many years before that, and 
this thing has been brewing for quite some time. With that 
being said, 9/11 seems to be the start of it.
    So, all three of you being afforded the hindsight and being 
20/20, what the greatest mistake that we have made, as a 
country, since 9/11? Just as quickly as you can. Because my 
concern that we have now is that--is--Mr. Gordon, you had said 
that, you know, with even our allies--and I think as Ambassador 
Crocker had said, that they're not willing to fight on the 
ground, they're not willing to take the fight on the ground, so 
if we don't do it, doesn't look like it's going to be done. 
We've proven it. We've been there, and it didn't seem to 
stabilize that area, because, as soon as we pulled out, it was 
falling apart. So, if you could just give me an oversight, very 
quickly, on the greatest mistake and the simplest direction 
forward that we could not repeat that mistake again.
    General Keane. Well, I had it in my testimony--I mean, I 
fundamentally believe that the singular strategic mistake that 
we've made is not to develop a strategy dealing with radical 
Islam, and not just focus on one particular group, and embrace 
the intellectual challenge that this ideology presents to us, 
embrace it politically, but brace it in terms of what we need 
to do financially and economically, and what we must do 
militarily, and bring people together, nations together, to 
have a common invested interest in this, and deal with it.
    There's going to be something after ISIS. We will defeat 
ISIS. There is going to be something after ISIS that will 
threaten our national interests in the Middle East or someplace 
else that's going to get us involved and concerned, and we're 
going to have meetings about it, and people will follow me in 
here in telling you how to deal with that problem. That is the 
singular problem I see, that we have not faced up to the--this 
issue, strategically, to deal with radical Islam, itself, and 
stop--while we have to stop and defeat ISIS, as we had to stop 
and defeat the al Qaeda senior leadership in Pakistan, until we 
deal with a comprehensive strategy, we're going to find 
ourselves in the same situation we are now with ISIS. This is a 
generational problem. We have to understand it for that and 
take a page out of the 20th century in how we dealt with 
communist ideology, form a NATO and SEATO common political and 
military alliances to come together to deal with a common 
problem.
    Senator Manchin. Ambassador Crocker.
    Ambassador Crocker. Senator, that is a profound question. 
I've thought a lot about it. I opened our Embassy in 
Afghanistan shortly after the fall of the Taliban. The force on 
the ground then was 5th Special Forces Group, the CIA, and one 
Marine Expeditionary Unit. That was it.
    Senator Manchin. That was after 9--that was----
    Ambassador Crocker. After 9/11.
    Senator Manchin. Yeah.
    Ambassador Crocker. The Pentagon at that time was 
absolutely opposed to introducing any more forces to help 
Karzai secure cities outside of Kabul. I think the biggest 
mistake we made is not understanding the reach of time and the 
resilience of those who are our adversaries. I had my first----
    Senator Manchin. You would think, by just watching happened 
with Russia being there for 10 years, we would have had some 
insight of the resilience these people have.
    Ambassador Crocker. Which may have been behind the thinking 
of the Pentagon at the time----
    Senator Manchin. Gotcha.
    Ambassador Crocker.--for not wanting----
    Senator Manchin. Gotcha.
    Ambassador Crocker.--additional forces.
    So, we kept our force footprint down. Of course, our 
resilient enemy came at us, as it subsequently did in Iraq--
different enemy, but same league. So, it's a way the same. 
There aren't any easy answers. It's hard to say--I mean, I will 
not go to the extreme position of saying that the overthrow of 
the Taliban and the expulsion of al Qaeda was a mistake. I--as 
an American, I cannot bring myself to say that.
    Senator Manchin. Declaring war in Iraq?
    Ambassador Crocker. I'm coming to the mistakes.
    Afghanistan is worth spending some time on, because--hard 
to argue that we shouldn't have taken military action after 
what came to us out of Afghanistan. The mistake, if there was 
one, was not understanding that you can't kill them all and 
that the effort to create a strong, stable state in Afghanistan 
probably wasn't going to happen. So, then what? In Iraq, it 
was----
    Listen, Senator, I learned maybe two things during almost 4 
years in the Middle East. I thought one lesson every couple of 
decades was a pace I could sustain. It's--so, the first lesson 
is: Be careful what you get into in the Middle East. The first 
time I learned that lesson was in Lebanon, 1982, Israeli 
invasion. We all thought it was a good idea, get rid of the PLO 
[Palestinian Liberation Organization]. Well, we got rid of the 
PLO, and we got Hezbollah. We got a chain of events that led to 
the bombing of my Embassy, with me in it, and the bombing of 
the Marine barracks. Be careful what you get into.
    The second thing I learned is: Be just as careful what you 
propose to get out of, that disengagement can have consequences 
as great or greater as engagement. I would suggest to you, we 
didn't follow those lessons at all well, either of them, in 
Iraq.
    Senator Manchin. Mr. Chairman, can Mr. Gordon just give us 
his--what he thinks the greatest mistake----
    Mr. Gordon.
    Thank you. Thank you, Ambassador.
    Mr. Gordon. Yeah, I agree, it's a profound question, a hard 
question. I'd say, with the greatest respect, it may not even 
be a helpful question, because we should be reluctant, because 
of these complexities, to identify single things. I think many 
would argue, if you had to identify a single thing, that it 
would be the Iraq War, not just because of the financial and 
human costs, but because it tipped the strategic balance in the 
region and put Iran in charge in Iraq. It led to Sunni 
disempowerment, which is partly fueling al Qaeda in Iraq and 
then ISIS. It made the United States public wary of our 
engagement in the Middle East, and arguably even over-wary, so 
we're not willing to do things that, arguably, we should. I 
don't--I think we have to acknowledge that for every, you know, 
mistake of action, there would have costs of inaction, too. So, 
even I'm not willing to say that that's the greatest single 
mistake, because, had we not done it, we might be sitting here 
talking about the mistake of leading--leaving Saddam Hussein in 
power. So, that's why I'm reluctant to----
    Senator Manchin. Sure.
    Mr. Gordon.--identify single things.
    I've pointed out elsewhere that, you know, when you think 
back about the region, in Iraq, we intervened and occupied, and 
it turned out very badly. In Libya, we intervened, but didn't 
occupy, and it has turned out very badly. In Syria, we neither 
intervened nor occupied, and it has turned out very badly. I 
think the lesson of that is just overall caution that there is 
some single answer or model for how we should deal with these 
problems, again, has been said, so I would--I would say there's 
not a single mistake, just as there's not a single answer for 
what we should do, going forward.
    Senator Manchin. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Ayotte.
    Senator Ayotte. Thank you, Chairman.
    I want to thank all of you for being here.
    General Keane, I wanted to ask you--and certainly we've 
seen Iran twice test ballistic missiles this fall, and we know 
that, recently, the administration has issued some minimal 
sanctions, frankly, recently, after the hostage release, to 
address those ballistic missile tests. Do you think that their 
response to these testing of the ballistic missiles, post the 
inking of this agreement, obviously in clear violation of 
existing U.N. resolutions, is sufficient? What does this--as I 
hear all of you say, that, no matter where you stand on the 
Iran agreement, we've got to be quite vigilant, going forward--
and what do you make of this?
    General Keane. Well, to directly answer your question, I 
think that's a totally inadequate response. These are 
essentially U.S. unilateral sanctions that we're imposing. This 
is a violation of U.N. resolution. The United States should 
lead an effort in the Security Council to impose tough economic 
sanctions on that and set that as a bar, certainly, because the 
Iranians have already told us that they're going to continue to 
test ballistic missiles. Now, these are medium-range ballistic 
missiles. They're eventually going to be testing long-range 
ballistic missiles that'll reach all of Europe. Then the 
Iranians are totally capable of moving to intercontinental 
ballistic missiles. So, if--here's the 36-year pattern of not 
doing anything, and look where we are with the Iranians.
    So, I'm--I am of a mind that we have to have tough-minded 
economic sanctions. They have worked. It is what brought the 
Iranians to the negotiating table over the nuclear deal, 
primarily, in my judgment. So, yes. I think every time they 
take a hostage, there should be some kind of a sanction. We 
have refused to do that. The--we are incentivizing hostage-
taking. As the Ambassador painfully is aware of, they have been 
taking hostages since the 1980s. This is a cottage industry for 
them. They take hostages, we scream and holler about it. We 
eventually get our hostages back. Tragically, they killed CIA 
Station Chief Buckley. The reality is, we've not stood up to 
it. That gets their attention.
    So, I think, yes, we have to take a stand by this and 
demonstrate to the Iranians and to our allies in the region 
that, despite the nuclear deal we've made with the Iranians, we 
are not giving up on standing up against their malign behavior 
in the region and as it impacts our interests and the stability 
and security of the region. Now, we're going to be there. When 
we don't do that, and we just do what we did, these unilateral 
in--sanctions for missile testing, that is inviting more 
missile testing.
    Senator Ayotte. Can I also ask--Ambassador Crocker, I was 
very curious about your statement, which I thought was very 
direct, in answer to Senator Sessions, about, Where does the 
United States stand? As we look at allies like Saudi Arabia, 
that right now we are giving them the impression that we aren't 
standing with them. In fact, we've seen, obviously, that Iran 
and Russia, you very clearly laid out, have taken a side, here, 
and it's a side against our interests, ultimately, and against 
peace and stability in the region, which is in, of course, all 
of our interests. I wanted to ask you. in terms of what we 
should be doing, I see this as connected. So, when the Iranians 
act badly and we don't respond, I think this also gives a 
message to some of our allies that are concerned about Iran's 
hegemonic behavior in the region. What would you like to see us 
do with regard to our allies? How do we turn this around right 
now to make sure that our allies, who we need at this moment to 
address the ISIS threat and also threats that can flow from 
Iran from their malign behavior, going forward?
    Ambassador Crocker. Thank you, Senator.
    First, make it clear that we are going to stand against 
malign Iranian activity. I gave a suggestion on what we might 
look at doing in Syria. In Iraq, I would like to see--not Ryan 
Crocker, but John Kerry go out and--anybody but me--go out and 
spend a prolonged period of time out there.
    Senator Ayotte. Don't ask us, because we're going to want 
to send you.
    [Laughter.]
    Ambassador Crocker. You know, Condi Rice did this when I 
was out there. In this administration, I think there have been 
two Secretary of State visits in 7 years to Iraq, one by 
Secretary Clinton and one by Secretary Kerry. I think that's 
right. I'm not sure.
    Senator Ayotte. Well, that's telling. That's telling.
    Ambassador Crocker. In--and so, the space we vacated, the 
Iranians filled. They're--they are not seeking a unified Iraqi 
state that is friendly with Iran. They are seeking, basically, 
the destruction of an Iraqi state, its division into a 
Kurdistan, where they would have heavy influence, a Shi'astan, 
with most of the oil that they would effectively control, and a 
Jihadistan that the Islamic State can have, and who cares?
    So, I would start making a major diplomatic push. There is 
a Prime Minister we can work with. He hasn't had many options, 
beyond Tehran. I'd like to see us give him one. Those would be 
a couple of things.
    When the Secretary needed a break from Baghdad, he could 
move around to Oman, to Tel Aviv, to Ankara, to Cairo, to 
Riyadh, repeat as necessary. It will be necessary.
    Your business on this Hill, and the business I left, has 
one thing at the center of both: It's about relationships. I am 
concerned that we have let our relationships atrophy with our 
friends in the region. We need to take some specific actions to 
show our resolve. We also need to just take them seriously and 
engage with them.
    Finally, I would say, with respect to the ballistic missile 
tests, I would agree with General Keane. I--and maybe we're 
doing this--that we are active in the United Nations with the 
Security Council. Probably a good time to be a little bit quiet 
on it until we can do the prep work, but I think we should make 
the same effort there that we did on the nuclear issue.
    Chairman McCain. Senator King.
    Senator King. Thank you, Mr. Chairman.
    First, General Keane, I agree with you completely that a 
comprehensive strategy that involves everything from military 
force to information to ideology to ideas is needed to deal 
with the threat of ISIS, which is the longrun threat. So, I 
appreciate your testimony on that. I think that's exactly 
right.
    Just a small question. Ambassador Crocker, you noted you 
thought Prime Minister Merkel was suffering politically for, 
quote, ``doing the right thing'' about taking in Syrian 
refugees. I presume you think that this country has some 
responsibility to take in Syrian refugees?
    Ambassador Crocker. Yes, sir, I do. More profoundly, I 
believe this country has an obligation to lead on a global 
crisis, not to let the European--or, leave it to the Europeans, 
who----
    Senator King. You're talking now about the refugee crisis.
    Ambassador Crocker. The refugee crisis. The--we have a 
broad responsibility, I believe, as America, as a global 
leader, to lead on a global crisis, to help the Europeans sort 
out what they're doing with these people, to support, as fully 
and actively as we can, the Turks, the Lebanese, and the 
Jordanians.
    Senator King. It would be very difficult for us----
    Ambassador Crocker. Part of that--oh, sorry, Senator.
    Senator King. No, you go ahead.
    Ambassador Crocker. Part of that--you know, we're not going 
to be able to lead effectively if we don't walk the walk.
    Senator King. That was going to be my question.
    Ambassador Crocker. That--and in my view, that means taking 
in a significant number of refugees. They're not going to take 
us very seriously in Europe. Angela Merkel's got a million, and 
we've got 2100. That doesn't mean we've got to--I mean, I'm all 
for the vetting process. It's essential. I'd just like to see 
it made more of a priority to be able to move refugees faster. 
Again, this crisis isn't going to get any better. With the kind 
of fractionated approach of dealing with it that has emerged 
without a single State stepping forward and saying, ``Let's 
everybody get together and figure out how we're going to deal 
with it,'' I'm just afraid we're going to see more and more of 
this.
    Senator King. I thank you for your testimony. I'm sitting 
in a Senate seat that was occupied by Edmund Muskie, whose 
father was an immigrant from Poland, and George Mitchell, whose 
mother was an immigrant from Lebanon.
    General Keane, the central question about Syria, you 
touched upon, and we've sort of talked around it. Where does 
the ground force come from? I think I heard agreement that it 
shouldn't be us, because that's a recruiting poster, that's 
what ISIS wants, that would be a gift. Then we're hearing that 
the Muslim countries don't seem to want to step forward with 
ground troops. Where do we--that's--this has been the problem 
with the strategy for 3 years--where do the ground troops come 
from in Syria to confront ISIS?
    General Keane. You know, ISIS in Syria, much as ISIS in 
Iraq, is occupying Sunni land. The bit of land that they were 
dealing with the Kurds on, the Kurds have effectively reclaimed 
in Syria, as well as in Iraq. By the way, we should use that as 
evidence that ISIS certainly isn't 10 foot tall.
    Senator King. Right.
    General Keane. We put together a fairly decent 
representative ground force, supported by some effective 
airpower, we can defeat ISIS. So----
    Senator King. The same thing happened in Ramadi.
    General Keane. Yeah. The problem we have is that the ground 
force is fighting Assad. That is essentially--the largest force 
that's fighting Assad are Sunni Syrian Arabs.
    Senator King. Therefore, getting rid of Assad should be a 
priority----
    General Keane. That----
    Senator King.--in order to turn that force----
    General Keane. That is what we are----
    Senator King.--on ISIS.
    General Keane. That is what the Ambassador and I have been 
saying, that Assad remains a priority for--certainly to get off 
the status quo and this humanitarian catastrophe that we're 
facing, which is contributing to migration challenges, but it 
also enables ISIS to thrive, because the Sunni Arabs are not 
going to cross that border while--and fight ISIS while the 
Iranians are propping up the Assad regime. It is----
    Senator King. If Assad----
    General Keane.--just not going to happen,
    Senator King. If Assad went, you'd have--the Syrian army 
plus the moderate opposition would then be able to focus on 
ISIS. The--but, the--now--and I'm not being argumentative here, 
that you all have--or at least you two have endorsed a no-fly 
zone. That was a lot easier when it was just the Syrian air 
force. We're--the testimony is, How do we--we talk about a no-
fly zone. You're talking about shooting down Russian airplanes.
    General Keane. Well, you know, this is a problem we've 
always had, from the Cold War to the present. Because the 
Russians have a capability and we have a capability, and if we 
fear their use if that capability and paralyzes us from taking 
action, then we're taking a knee. I don't think we need to do 
it. I'll be quite frank about it. I would have demonstrated 
America's resolve right from the beginning. When they first 
bombed Syrian moderates that we trained, we should have 
cratered that runway and send a strong signal--not kill a 
single Russian, but cratered that runway and say, ``You do that 
again, then more than that runway is going to go away.''
    These--this is something we learned in the Cold War. The 
Russians have stepped up. They have brought to the table a very 
limited Russian capability. They haven't been out of the region 
in 35 years, since they went to Afghanistan. That was a failed 
military operation, as we're all aware of. They are an inferior 
military, by comparison to the United States. They know that. 
They know it. They have selected capability that is very good. 
I think if we establish a no-fly zone, I don't--and we're going 
to put people in there to protect them--I don't really see the 
Russians coming in to bomb it. They would be a pariah on the 
world stage for doing something like that. The more likely 
attempt at protecting a safe zone would be from infiltration, 
suicide bombers or something like that, where you would need 
some kind of ground force to protect it, or firing a missile or 
a rocket at it, which means you'll--you have to bring up from 
Jordan and Turkey missile defense systems that could help 
protect the no-fly zone. So, I don't think the----
    Senator King. We wouldn't necessarily----
    General Keane.--the fear of Russian intervention in a no-
fly zone should paralyze us from establishing that very thing.
    Senator King. Well, I share your analysis. So, going back 
to the Soviet Union, the best analogy I ever heard was that 
they're like a hotel thief; they try all the doors until they 
find one that's open.
    [Laughter.]
    General Keane. I haven't heard that one.
    Senator King. That's essentially what you're suggesting 
here. By not showing any level of resistance, then they're 
going to maintain their presence. Of course, the danger is some 
kind of counter-escalation. I think, Mr. Crocker, something I 
wrote down, ``Be careful what you get into.'' That's always a 
good piece of advice.
    Thank you, gentlemen. Very important testimony.
    Chairman McCain. Senator Cotton.
    Senator Cotton. General Keane, if I could continue on this 
point. Russia began significant operations in Syria in late 
September. They had multiple incursions into Turkish airspace 
September, October, and early November. Then, in late November, 
Turkey shot down one of their--one of Russia's aircraft. Do you 
know how many times Russia has invaded Turkish airspace since 
that shootdown?
    General Keane. I have no idea. I suspect they have not.
    Senator Cotton. What do you think that says about the 
connection between those two events and their willingness to 
respect a demonstration of force in enforcing airspace rights?
    General Keane. Yes. I mean, the pattern of the Russians is 
exactly what we see in that situation. Turkey was protecting 
their sovereign airspace. They took what they thought was 
reasonable action to do that. The Russians have stayed away 
from it. I think that would be the same situation dealing with 
a no-fly zone.
    Listen, they--the Russians, at the end of the day, are not 
fools. They're practical. They're in Syria for one reason only, 
to prop up the Assad regime. They have a very limited military 
objective. That is their goal. They--I cannot see them 
extending that to bomb a place where we're trying to protect 
innocent people.
    Senator Cotton. Ambassador Crocker, would you agree with 
that assessment?
    Ambassador Crocker. I would, sir, and I'd extend it, of 
course, to Iran, that they, Russia and Iran, in alliance, are 
going to push, in Syria and elsewhere, at least in the case of 
Iran, until somebody, like us, pushes back.
    Senator Cotton. If we could stick with Turkey for a moment, 
since they are, in many ways, the lynchpin of both the--what's 
happening in Syria and our efforts there, as well as the 
refugee flows. At this moment, based on their past conduct, how 
would you assess that the Turkish Government prioritizes the 
various fights they are engaged in--the Kurds, the Assad 
regime, and the Islamic State?
    Ambassador Crocker. That's a great question, Senator, 
because it highlights something that we've been talking about 
this morning. We want the non-jihadi Syrian groups to fight 
Islamic State. Their archenemy isn't the Islamic State, it's 
Assad. We want the Arab states to come in to fight Islamic 
State. That's not their biggest issue. It's Iran. The same 
thing applies with Turkey. Islamic State is clearly a threat to 
them, and they know it. We've seen the attacks into Syria. In 
Ankara's calculus, the Kurds are a much greater threat. So, 
we've got the dilemma that the most effective on-the-ground 
force we have found in Syria is the one that the Turks fear the 
most, particularly since the Syrian Kurdish groups, the YPG, 
are affiliated with the PKK. You know, thousands have died in 
that conflict inside of Turkey, both Kurds and Turks. So, this 
is the problem from hell at every dimension. It isn't going to 
get better on its own. A startling revelation, I know. It's 
going to take that kind of sustained dialogue and engagement 
with all of our traditional allies in that area. We just need 
to be having that conversation.
    Senator Cotton. Continuing on priorities, which Sunni Arab 
state views the Islamic State as a graver threat than it views 
Iran and Shiite aggression in the region?
    Ambassador Crocker. I am not totally current on this. I 
would say, based on my last interactions--and, of course, King 
Abdullah was just here; some of you may have had that 
conversation with him--I think King Abdullah would put Islamic 
State up there ahead of Iran. The Arabian Peninsula states--no, 
it would be Iran. We've--didn't get much notice, but the 
Kuwaitis made some arrests, in the last week or so, of 
individuals accused in a massive terror plot involving 
literally tons of explosives that they traced to Iran. So, for 
them, it's an existential threat.
    In Iraq, he is in no position to say so, but I would bet 
that, sandwiched between ISIS and Iran, the Iraqi leadership 
would probably put them on pretty much a par.
    Senator Cotton. Well, my time is expired, but, Mr. Gordon, 
I infer from your head-nodding that you largely agree with 
Ambassador Crocker's assessment? Do you care to add any 
perspective?
    Mr. Gordon. I agree with his assessment. I think the United 
Arab Emirates, Jordan, Egypt, and Iraq would all say ISIS is a 
greater threat. Saudi Arabia would be focused on Iran.
    Senator Cotton. Okay.
    Thank you all, gentlemen.
    Chairman McCain. The dilemma is to reconcile those 
priorities.
    Senator Heinrich.
    Senator Heinrich. Thank you, Mr. Chair.
    I want to continue on this issue of, sort of, priority and 
scale, because we've heard a lot today about the threat of Iran 
and its influence in the region, the threat of Assad in Syria. 
On a scale, we've heard a lot less about ISIS.
    Secretary Gordon, I wanted to ask you, How would you 
prioritize or rank and scale those three threats in the region, 
in terms of our greatest--the greatest threats to our current 
interests and security?
    Mr. Gordon. To the three, Iran, ISIS, and--what was the 
third?
    Senator Heinrich. Just Assad in Syria.
    Mr. Gordon. Yeah, which you could couple with Iran, in many 
ways. You know, I don't like the choice, because we should 
acknowledge that we have major problems with Iran, which----
    Senator Heinrich. Right.
    Mr. Gordon.--threatens our interests, and we have an 
interest in containing Iran. We also have a strategic interest 
in defeating and destroying ISIS. So, I don't like the choice, 
which somehow implies----
    Senator Heinrich. Obviously, they're all related. So, I'm 
not asking for, necessarily, a one-two-three, but a--How do we 
prioritize our resources to address these three threats?
    Mr. Gordon. I think we have to do them all at the same 
time. The question of Syria, I already made clear that I think 
our prioritization needs to be de-escalating the conflict more 
than displacing Assad. Would I like to get rid of Assad 
tomorrow? Absolutely. I wouldn't like to, if the cost of that 
was an even greater all-out war among all of the different 
groups in Syria. I fear that the most likely result of 
immediate steps to get rid of Assad now would not result in 
moderates ruling Syria in an inclusive way and turning on ISIS, 
which we'd love to see, but, rather, an all-out battle for 
Damascus, hundreds of thousands, or possibly millions, more 
refugees of all those who are afraid of living in that battle 
between ISIS, Nusra, and dozens of other groups. So, for that 
reason, my priority on that issue would be de-escalating the 
war rather than getting rid of Assad.
    Another important priorities question is undermining Russia 
in Iran, vis-a-vis stopping the war. Is it in our interests to 
contain and undermine Russia in Iran? Absolutely. We could put 
that on the top of our list and do whatever it takes to do 
that. I think the costs and consequences of that--the ongoing 
Syrian civil war, the lack of a nuclear agreement with Iran--
would outweigh those. So, that's the--I mean, that is a nice 
summary for this----
    Senator Heinrich. Well, that's----
    Mr. Gordon.--entire hearing----
    Senator Heinrich. That's actually helpful.
    Mr. Gordon.--the need for discipline in prioritizing, 
because we have a lot of goals.
    Senator Heinrich. In relations to that, one of the 
challenges we have, especially with regard to the ISIS piece of 
this, is that, while we all recognize that Turkey can play a 
very strong and sort of geostrategic role in all of this, their 
approach has been oftentimes ambiguous. How do we leverage 
greater focus on ISIS from Turkey, given their concerns about 
the Kurds and other priorities? What do you think, Secretary 
Gordon, Prime Minister Erdogan's strategic goals and objectives 
are, truly, in this current engagement?
    Mr. Gordon. That's another great question. Ambassador 
Crocker alluded to this. The problem--you know, we all have 
lots of different adversaries in the region, and we prioritize 
them differently. Turkey's and ours, on the questions we've 
been discussing--Turkey, I would say, prioritizes the war with 
the Kurds, because they are internally threatened and, as was 
said, have lost 30,000 people in a conflict over three decades. 
Next is Assad. Then after that is ISIS, which they don't like, 
but they have a strategic interest in avoiding a conflict with, 
so they've been reluctant to really poke too much. I would say 
ours are the opposite. We would put ISIS on the top of those 
three----
    Senator Heinrich. Right.
    Mr. Gordon.--Assad next, and the Kurds are not only lower 
down, they're actually a partner.
    Senator Heinrich. Yeah.
    Mr. Gordon. I would note that, in the past week alone, we 
have seen Turkey oppose Kurdish representation in the 
opposition group that is meant to meet to try to de-escalate 
these talks, which is hard to--you know, it's hard to imagine 
excluding the Kurds from the opposition, and Turkey taking 
military action against the PYG, which is one of our strongest 
forces in fighting ISIS. So, that really underscores the 
difference that we have with Turkey on some of these. You 
asked----
    Senator Heinrich. That's----
    Mr. Gordon.--you know, how to deal with it. I think you 
used the word ``leverage.'' Look, Turkey is still an ally and a 
partner, and we need to have an absolutely frank conversation. 
Because we have different priorities, only a sort of tradeoff 
on these issues can get us on the same page.
    Senator Heinrich. Ambassador Crocker, while I have a couple 
of seconds left, you pointed out that in--Germany has a 
million-plus refugees. I think Jordan has a million-two, 
something like that. The U.S. is willing to take 2100. Do you 
have an opinion on the House-passed bill, the American Security 
Against Foreign Enemies, or SAFE, Act and its potential impact 
on being able to deal with refugees from Iraq and Syria?
    Ambassador Crocker. I appreciate the fears in this country 
in the wake of Paris, and particularly San Bernardino. These 
are real fears. I just think the legislation is aiming in the 
wrong direction.
    You know, the refugees are not the source of the problem or 
of terror. They're the victims of it. It's also very important, 
again, to keep a regional perspective. I follow Islamic State 
media as closely as I can, and it was very interesting. Back in 
September, when Chancellor Merkel made the statement that 
refugees were welcome in Germany, the Islamic State social 
media went nuts, ``Don't believe it. It's a trap. They're 
trying to lure you in so they can imprison you, or worse.'' On 
it went. It defeats a key part of the Islamic State narrative 
if the West, including the United States, is seen as welcoming 
of the refugees that they are helping to create, that we are 
the protectors of Muslims, not them, that they are the 
tormenter, we are the protector. That's the narrative we want 
to get out there. I just hope we do it. Again, I understand 
what the legislation is intending to do. I think it's--it's 
actually counterproductive.
    Chairman McCain. Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    Ambassador Crocker, you noted that we need to stand with 
the Sunnis, because of, you know, others--Iran has taken a 
position. So, what does this mean? What concrete steps do we 
take to reaffirm our relationship, for example, with Saudi 
Arabia and with Turkey? Because there are internal issues going 
on within both of these countries that make it difficult, not 
to mention, for example, in Turkey, that they are very 
concerned that we are depending on Kurds to fight in Syria, and 
that is the biggest concern that President Erdogan has, 
apparently, in Turkey. Then, in Saudi Arabia, there are 
succession issues and some internal posturing that's going on 
there. So, how do we, with these two very important allies--how 
do we shore up our relationships with them and let them know 
that we stand with them? What concrete steps would you suggest?
    Ambassador Crocker. Well, two sets of issues, Senator. 
First, taking actions that demonstrate that we are on the same 
side of issues critical to them, as well as us. That is why I 
have been saying it's important to take a stand against what 
Iraq--Iran is doing in the region, both in Syria and Iraq, in 
particular. They're slightly different cases. To show the 
Saudis and others that, yeah, we're serious about the same 
things they're serious about.
    With Erdogan in--Turkey is a--you know, a NATO ally. It's 
in a special category. They stood with us in Korea. We should 
be having the kind of high-level sustained dialogue that befits 
a critical treaty alliance, to listen to them, to understand 
their concerns, to see how the region looks to Erdogan in some 
detail and depth. It starts with that kind of engagement.
    We also need to be careful, I think, in understanding the 
very real limits on how helpful the Kurds can be. When you get 
outside of areas of their traditional influence--and we saw 
this when they led the effort to retake the Sinjar region in 
northern Iraq from Islamic State--some real frictions 
developed, because that is not a traditionally Kurdish area. 
So, in addition to Turkish fears, trying to push the Kurds 
into, say, Arab areas--not a good idea. So, just kind of 
understanding the dynamics, and then having that strategic 
dialogue.
    I'd just say one final point on Saudi Arabia, Senator. I've 
followed Saudi affairs for a long time. I'm never going to 
figure out how their internal political dynamics work. What I 
do know is, you know, for most of the last four decades, the 
West--elements in the West have been predicting the collapse of 
the House of Saud. It's still there. I think it's going to be 
there for a good, long time. Let them worry about how their 
internal politics are organized, and let's just deal with them 
as a government.
    Senator Hirono. Well, with the Saudis, there's a potential 
for a young 30-year-old to take over the leadership there. So, 
the Middle East is fraught with peril.
    Mr. Gordon, you said that de-escalating the conflict in 
Syria is the more immediate concern than getting rid of Assad. 
Isn't that the path that the U.S. is taking right now? De-
escalating the conflict there?
    Mr. Gordon. I think the U.S. is interested in de-escalating 
the conflict and is trying to find some middle ground between 
what might have been an ideal objective or an initial objective 
of complete regime change in Syria and living with Assad. So, 
looking for----
    Senator Hirono. For the moment. I mean, it's not a long-
term desirable----
    Mr. Gordon. That's right. That's why they're looking at: 
Could you have a certain amount of time that he can stay? Or, 
could you reduce his powers in the meantime? I think all of 
these things are important to explore diplomatically. I just 
fear that the insistence on immediate departure without a means 
to bring it about just perpetuates the war.
    Senator Hirono. Well, I----
    Mr. Gordon. While it wouldn't be ideal to have a cease-fire 
in place, and many have questioned whether the opposition would 
ever accept it, all of which are legitimate, if you could offer 
them what has never really been offered at all in the--in 5 
years, which is control over the areas that they control, an 
end of the offensive operation and barrel bombs, humanitarian 
assistance, prisoner releases, and a path and process to deal 
with Syria more generally, I think it would be an awful lot 
better than where we are right now.
    Senator Hirono. My understanding of our posture in Syria is 
that, in fact, we are not insisting that Assad go right away, 
because we recognize, as Ambassador Crocker has said, ``Be 
careful what,'' you know, ``you get into and what you get out 
of.'' So, I do not think that that is, in fact, what we're 
doing. I think what we're doing is to try to figure out a way 
to achieve a cease-fire there. That would have--go a long way 
to addressing the humanitarian crisis that is happening in 
Syria.
    Thank you very much, Mr. Chairman.
    Chairman McCain. Senator Kaine is sitting down.
    You know, where is our moral compass? Where are we 
satisfied to leave someone in power that has killed 250,000 
men, women, and children, and sent millions into refugee 
status? Ambassador Crocker addressed the result of this 
failure, ``So, let's leave him in power for a while and let's 
live with Bashar Assad for''--so, what? So, he can kill more 
people? So he can starve them, so he can slaughter them with 
poison gas? Is that the moral compass that the United States 
has followed? I don't think so. I think the greatest example of 
sticking to your moral compass is the Reagan administration. 
For us to sit by and say, ``Well, maybe Bashar Assad can stay 
for a while. Maybe we can''--we're--the--it's immoral. If we 
lose our moral compass, then we're just like every other nation 
in history.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair. You know I strongly 
support your--have long supported your proposals with respect 
to the humanitarian or no-fly zone in northern Syria. You were 
prescient in calling for that.
    A couple of questions for the witnesses. I apologize for 
stepping out. We're having a Foreign Relations Committee 
hearing on exactly the same topic, and we've been going back 
and forth.
    Who's a bigger enemy to the United States, ISIL or Syrian 
refugees?
    General Keane. What was the second part of that?
    Senator Kaine. Who is a bigger enemy to the United States, 
ISIL or Syrian refugees?
    General Keane. Well, clearly ISIL is a bigger enemy. I 
certainly don't think Syrian refugees are an enemy, period.
    Senator Kaine. Other witnesses?
    Mr. Gordon. Agree.
    Ambassador Crocker. Yes, sir. We had a--something of a 
conversation on that before you came back in. I agree 
completely.
    Senator Kaine. The reason I ask is, we're debating a bill 
this afternoon, and the title of the bill is Securing America 
Against Foreign Enemies Act of 2015. The enemies referred to in 
the bill are refugees from Syria and Iraq. We haven't had a 
debate or a vote about ISIL.
    The President sent a draft AUMF [Authorized Use of Military 
Force] authorization to Congress in the Middle of February. 
Now, I've not been hesitant to be critical of the 
administration. I think they should have sent it earlier. I'm 
not that wild about the content of it. They asked Congress for 
an AUMF draft in February. Each of you has had long experience. 
Are you--not only have we not voted on it, there has not been a 
debate or a vote in committee or on the floor in either house 
on the question of either the President's authorization or an 
alternate authorization in 11 months since the President sent 
it. Are you aware of any other time in our history where the 
President asked Congress for a war authorization, sent a 
proposed authorization to Congress, but that it was not even 
taken up for debate in committee or on the floor of either 
house?
    General Keane. I'm not aware of any that--any precedent 
like that. I provided testimony on this very subject, AUMF, and 
I certainly--I believe it should be taken and should be 
debated, and it should be voted on. I think it was very 
appropriate for the President to send it.
    Senator Kaine [presiding]. Other thoughts?
    Ambassador Crocker. Yeah. It's an important question. I 
would--you know, as a civilian, I would look at it in practical 
terms. Are there contingencies out there to which we could not 
respond militarily because the existing AUMF is not adequate? 
If the answer to that is yes, then I--just speaking as a 
citizen, I would find it incredible that Congress has not acted 
on it in almost a year.
    Mr. Gordon. I'm also not aware of any such precedents. I 
agree with you that it's a problem. I think we have a legal 
basis for what we are doing. I don't know of anything we'd 
immediately like to do that we can't do because we don't have 
it. I also think that the basis on which we are acting is mushy 
and far removed from what are trying to do. You know, we were 
talking here about slippery slopes or military slippery slopes. 
This is a sort of legal slippery slope, where you just get in 
the habit of not having a specific authorization, and then 
you're years away from the specific authorization you have. I 
don't think that's a habit the United States should want to 
develop.
    Senator Kaine. Ambassador Crocker, I wanted to ask one last 
question about an item in your testimony. I'm really grappling 
with something. I'm only trying to answer this for myself. You 
were real candid that in this Iran-Saudi Arabia tension which 
has now really accelerated--it's longstanding in origin, 
accelerated--that we really need to pick a side. What I've been 
worried about is, Is there a--are there unfortunate 
consequences of picking a side that we may not want? So, one 
analysis of this conflict is, it's a Sunni-Shiite divide. I 
think we would all agree, the U.S. doesn't have a side in a 
theological debate about which strand of Islam we prefer. 
That's not something we would pick a side in. It's a nation-
state battle between Saudi Arabia and Iran. There may be a 
cultural Arab-Persian component to it. There's certainly a 
worry about Iran's economic competitiveness and their military 
activity. There may be a little Revolutionary Guard against 
monarchy component. So, there's a lot of layers to this.
    How do we pick a side without just kind of making it look, 
to the--to that region of the world, that we're just sort of 
planting our feet on the Sunni side of a Sunni-Shiite sectarian 
fight?
    Ambassador Crocker. Yeah, it's a great question. We should 
not be in the position of having to pick a side, in my view, 
Senator, in that area. We should be leading. We should be 
deciding what the strategic agenda is, and then lining up 
support for it where it's most appropriate. Unfortunately, now 
we're playing catchup. The sides have been formed. We're very 
late to a very critical game, and are in that sad position of 
having, effectively, to choose a side. When we do--and I hope 
we do--then we need to work to start shaping that side, because 
there are some things going on there now that are not good for 
our allies or for the region as a whole or for our long-term 
interests. Just sitting on the sidelines doesn't really let you 
affect how the team's going to play.
    Senator Kaine. Dr. Gordon?
    Mr. Gordon. Maybe just to referred on this. Let's be clear, 
I think. We do pick a side. I mean, nobody should 
misunderstand. We do have allies and partners. You know, with 
Iran, even after the nuclear deal, we will have unilateral 
United States sanctions on Iran, we'll confront Iran, in terms 
of terrorism, human rights, other issues. We won't have 
diplomatic relations with Iran. Whereas, with the other side, 
we have extensive relationships, bases, ships, missile defense 
cooperation, sell billions of dollars worth of weapons, have 
strategic partnerships. So, I think, you know, the starting 
point should be to understand that we have partners and we have 
an adversary. So, that's clear.
    The question is--and I do agree with my colleagues that, 
notwithstanding everything I just said, we have a perception 
problem, and we have to deal with it. We should. Nobody should 
misunderstand that we're somehow right in the middle between 
Iran and our Gulf partners.
    The question is, does picking a side take you all the way 
to doing things that might not be in your interest, like not 
having a nuclear deal with Iran or going directly to war in 
Syria? I think there's limits to the degree that we take sides. 
We have our own national interests, and that has to be a part 
of our frank dialogue with our friends and partners.
    Senator Kaine. General Keane?
    General Keane. Yeah. I think the model of the Soviet Union 
is a good one. We clearly took a side and--because we felt it 
was an existential threat to the country. Here, we believe, I 
think, Iran's geopolitical strategy to dominate the region is 
not in the United States national interests, nor in our allies' 
interest. So, clearly we're lined up against that. I don't 
think we've done enough to counter this malign behavior. At the 
same time, in dealing with the Soviet Union, we obviously 
formed political and military alliances against it, but it 
never stopped us from seeking opportunities to work with the 
Soviet Union for common purpose and common interest.
    I think when you do--when you operate from a position of 
strength like that, it actually enables you to get more done 
with your adversary. I think that's what Ambassador Crocker and 
I are arguing for, that this train has already left the station 
and we have disengaged from the region, and, without our 
involvement in it, this could get to be a very dangerous 
situation between Saudi Arabia and the Iranians and their 
supporters. We have to get back in it, and we have to rally our 
allies, and we have to have clear political and diplomatic 
objectives of what we're trying to achieve to counter the 
Iranian advance in the region.
    Senator Kaine. Thank you for your service and testimony.
    Senator Shaheen.
    Senator Shaheen [presiding]. Thank you, Senator Kaine.
    Senator Kaine and I were running back and forth between the 
Foreign Relations Committee upstairs, so thank you for holding 
on until I could get down here.
    First of all, let me thank all three of you, both for being 
here this morning and for your service to the country. It truly 
is impressive. Your willingness to continue to engage is also 
impressive.
    I wanted to just follow up on some of the specifics that 
you raised in your testimony. Ambassador Crocker, one of the 
things you said--and I may not be putting this exactly 
accurately, but I think what I understood you to say is that 
the more we appear to take sides with Russia and Iran, the more 
difficult it becomes to get a resolution with those people who 
have been our friends in the Middle East. Did I understand that 
correctly? I ask you this because it seems to me, as I look at 
Syria, that if we're going to get any kind of a political 
solution, that Iran and Russia have got to be at the table. Do 
you disagree with that?
    Ambassador Crocker. I think they do have to be at the 
table. My concern is that, with the current dynamic in Syria, 
where Russia and Iran both feel--they're on a roll, here--that 
their intervention is being quite successful in propping up 
Assad, that not only will we not have a successful negotiation, 
we're not even going to get to the table. That's what I think 
we're seeing now with--as these talks scheduled for next week 
sort of slip away from us. So, yeah, there has to be a 
negotiated end to this conflict. My belief is, for that 
negotiation to succeed or even take place, we've got to change 
some of the dynamics on the ground, both to back up Assad, 
Iran, and Russia, to reinforce our Sunni friends inside Syria, 
and to send a signal to the larger region. So, absolutely there 
has to be a negotiation, but we just don't have the terms for 
it now.
    Senator Shaheen. Well, I don't--I agree, basically, with 
what all of you have said with respect to the need to intervene 
more to try and force the forces supporting Assad to the table 
to come up with some resolution. The question that I still have 
is based on what each of you had to say. It's still not clear 
to me how we do that, because the--I like the idea of the no-
fly zone. I think that sounds like one of the positive things 
that we could do. On the other hand, we've had testimony from 
members of our military, some of our military leaders, that 
that would require a significant military presence, we would 
take casualties, we would have a difficult time destroying 
Syria's air defense system. I've also heard from 
representatives of the refugee community who say it would put a 
target on refugees, because it would be a place where they 
would be forced to go because they felt like they were safe, 
and then they would become targets of ISIS. So, I'm not quite 
sure how that works without a significant military presence. I 
do think, you know, the involvement of Special Operations 
Forces--I mean, that seems to me one of the things that we're--
we've been trying to do more of. I think there's--I certainly 
believe that there's been some success with that and with air 
defenses.
    Again, it's just not clear to me how we accomplish the 
successes that each of you talk about, in reality, without 
putting back on the ground the kind of military force that we 
had in Iraq and Afghanistan, and we are now seeing the impact 
of withdrawing those forces. So, enlighten me, if you would.
    General Keane, I'll ask you to go first.
    General Keane. Sure. Well, I think you're talking about two 
things, Assad and Syria, and the military and political 
dimension of that, and also ISIS. I think, to a--to some 
degree--I mean, Syria gives you a headache just thinking 
through it. Reasonable people can disagree, certainly, on what 
to do about it. They certainly do. In my judgment--and we've 
been discussing this on and off most of the morning--the 
political dimension in Syria is critical. We have to change the 
momentum against the regime to be able to get a political 
solution. The Russians are there and the Iranians are there to 
prop up and preserve this regime and their own national 
interests.
    Senator Shaheen. Right. I heard most of----
    General Keane. So----
    Senator Shaheen.--the testimony----
    General Keane. So, that----
    Senator Shaheen.--this morning.
    General Keane.--that is critical. The no-fly zone, I 
disagree with my military colleagues, who may have made it 
appear too difficult to achieve. I don't think, for a minute, 
that we're going to have an issue with Syrian air defense 
systems, which, if we did, we would destroy them all, quite 
frankly. They know that. I also don't----
    Senator Shaheen. Well----
    General Keane.--I don't believe----
    Senator Shaheen.--let me just--I don't want to be 
argumentative, but--and I'm out of time, so I will just make a 
final point, because you raised that. Maybe circumstances have 
changed. We've had direct testimony from military leadership 
expressing concern about the losses that would be incurred if 
we had to go in, from the Syrian's air defenses. So, maybe the 
situation has changed. Can you speak to that?
    General Keane. No. I mean, that's their job, to lay out the 
level of risk that's associated with any option that takes 
place. There is a level of risk. That doesn't mean we don't do 
it. There's always potential for casualties. That's the reality 
of it. I've also spent a lot of time on this issue. I'm very 
convinced that we can establish a no-fly zone with minimum 
interference from the Syrians, to be sure. Listen, it--if we're 
going to put innocent people in there, I don't see the Russians 
or the Syrians bombing that, frankly, and certainly not the 
Russians. The Syrians have bombed their own people in the past, 
but they would pay a price for it.
    Secondly, I think the threat would come largely from the 
ground. That would be in the case of suicide bombers and 
others. So, you have to have some kind of international force 
on the ground to protect that site.
    I think we've got a history with no-fly zones in the past. 
We've done them successfully. I think we could do it here. It 
would have been better to do it a long time ago, certainly, as 
it would have been better to deal with the Syrian Arabs, in 
terms of helping them a long time ago. Still, it is still a 
realistic option that should be on the table for implementation 
to help us move towards a political solution.
    Mr. Gordon. Senator, could I add a word on this?
    I just think it's important to remember that it's all about 
the political objective. If the political objective remains 
that the regime is giving up power, I think changing the 
balance on the ground modestly, or even putting in a no-fly 
zone, is unlikely to bring about that objective. If you think 
about precedents, there's not a lot of precedent for this type 
of operation, where you gradually increase support for some 
armed opposition, and then the regime decides to hand over 
power, certainly not when it's backed by major powers like Iran 
and Russia.
    Think about Libya, which had nowhere near the strength of 
Syria and wasn't backed by anyone. We started with a no-fly 
zone. A number of allies were providing arms to the opposition. 
It didn't end with a peaceful transition of power and the 
regime giving up its leader; it ended with the death of Qadhafi 
and everything we've seen since.
    Other precedents, like Kosovo, we weren't even asking for 
the regime to give up power; we were just asking to get 
security forces out of part of the country. We had a 78-day 
NATO bombing campaign with tens of thousands of sorties and the 
threat of a ground invasion before they did that. Iraq, we had 
no-fly zones for years, and it didn't bring about the political 
settlement.
    So, again, there may be other reasons to do these things, 
but I'd be awfully careful about thinking that those steps will 
lead to the political transition that we're trying to bring 
about.
    Senator Shaheen. Well, thank you all again.
    Thank you very much, Ambassador Crocker, for your 
statements with respect to refugees. I think--I appreciate your 
willingness to speak out on that.
    Senator Gillibrand.
    Senator Gillibrand [presiding]. Thank you, Senator Shaheen. 
I'm going to continue your line of questioning.
    So, I hear, from at least the answers that you gave to 
Senator Shaheen about some of the difficulties of a response, 
but, given that Turkey has the second-largest standing military 
in NATO, with almost 700,000 Active personnel and 400,000 
Reserves, Saudi Arabia is the most powerful army of the--of any 
Arab nation, with only--with over 200,000 Active troops, 1200 
tanks, 700 aircraft. Jordan has 90,000 Active troops, 60,000 
Reserves. However, up until this point, Iran has been the most 
active regional power in supporting ground troops fighting 
ISIL. So, what can we do, and what should we do, to engage our 
allies to bear a larger burden in the fight against ISIL? What 
can we do to encourage them to actually participate on the 
ground?
    Ambassador Crocker. Senator, the first thing we need to do 
is indicate that we are allies, and, as such, take their 
strategic and security concerns seriously. For Saudi Arabia, 
ISIL isn't the primary threat. It's Iran. For Turkey, ISIL 
isn't the primary threat. It's the Kurds, our allies.
    Senator Shaheen. They'll say, ``not all the Kurds.'' We 
just met with Erdogan, and he said, ``We have lots of Kurds 
that are our friends. In fact, the Kurds voted for me.'' So, he 
will take the Kurds as not a monolith and say, ``We get along 
with these Kurds. We just don't get along with the PKK.'' He'll 
be very assertive about that.
    Ambassador Crocker. Right. The Kurds in question, Senator, 
are the YPG in Rojava, in northern Syria, and they are 
affiliated with the PKK. So, it is a problem. That's why I have 
advocated a reinvigorated U.S. engagement with traditional 
allies and partners. We have differences, clearly, with Ankara. 
We have differences with Riyadh. What I'm concerned about is 
that we're not talking about the differences as friends and 
allies with the view to developing common ground, common 
understandings, and a common strategy. Because, without that, 
any notion of regional forces intervening in Syria against 
Islamic State is just fanciful. They are not going to do it.
    So, you're recommending more engagement. Frankly, when we 
took a CODEL of eight Senators, and that's what we heard, 
meeting with the Saudi defense forces who do antiterrorism. 
They were grateful for all of our intelligence efforts. They 
wanted to amplify everything we're doing together. From some of 
the more anecdotal conversations, they're looking for more 
engagement, not less. The same thing true with Turkey. Erdogan 
wants to increase trade. He's taken 2 million refugees. He 
wants the United States to engage on a far more aggressive 
level. So, they seem to be asking, at least of eight Senators 
that come to visit them, ``What's happening with regard to U.S. 
policy? What are we not doing that we should be doing?''
    Ambassador Crocker. I understand all too well the pressures 
on any administration, and particularly its senior members--the 
President, the Secretary of State, and so forth. I think, at 
that level, we've just got to be more involved in the region. A 
lot of this can be done by telephone calls. There's nothing 
like a Secretary of State visit. Earlier in the hearing, I----
    Chairman McCain [presiding]. As opposed to a congressional 
visit.
    Senator Shaheen. Yeah. We're just eight Senators----
    Ambassador Crocker. I was----
    Senator Shaheen.--from all over the country.
    [Laughter.]
    Ambassador Crocker. I was going to say, Mr. Chairman----
    Senator Shaheen. Chickenfeed.
    [Laughter.]
    Ambassador Crocker.--particularly--CODELs are really 
important. You know, I know they're--it's as--it's probably as 
hard for you, as members of the administration, to get away. 
Having hosted many of them over the years, particularly in 
Iraq, where I saw a whole lot of the Chairman, that's just 
crucial.
    Senator Shaheen. So, you recommend the Secretary of State 
go to the region and engage more aggressively.
    Ambassador Crocker. Yes, ma'am, I do. I had said earlier 
that--you know, the Iranians have kind of filled the vacuum in 
Iraq, and it is a very, very bad situation. I would like to see 
the Secretary go camp out there. When he needed a break, he 
could go to Riyadh and Tel Aviv and Cairo and Ankara. We just--
we've got to ramp this up, because this is--as bad as this 
situation is now--I'll try to say something uplifting--we're 
going to look back on this day with fondness and nostalgia, 
because, the way things are tracking, it's going to be a whole 
lot worse in a couple of months.
    Senator Shaheen. Well, Mr. Gordon, you said, in fact, that 
we should be not dealing with the symptoms of ISIL, but be 
going straight to the cause of ISIL. I'd be interested--I'm 
past my time, so maybe you could submit it to the record--but, 
how can the United States have an impact on the causes? 
Obviously, it's not just a military effort, it's diplomatic, as 
well. What is the message or the approach you think that 
actually could resonate?
    Mr. Gordon. Senator, that would, indeed, be a longer answer 
than we have time for, so I'll just give a brief one. By 
``focus on the causes more than the symptoms,'' what I meant 
was that we can and should and need to do all of the things 
people normally talk about in a comprehensive ISIS strategy on 
foreign fighters and finances and the borders and the 
opposition and direct U.S. action. All of those things can and 
need to be done. To really zero in on it, so long as the 20 
million Sunnis who live between Damascus and Baghdad are 
feeling disadvantaged, repressed, and killed by Iranian-backed 
Shiite dictators, we're going to be facing this problem, and 
they're going to be radicalized, both in the region and beyond.
    So, again, it's a longer conversation of how we do that in 
Iraq. I think, among us, we have a consensus that there needs 
to be more done politically for the Sunnis of Iraq to empower 
them and make them feel they're actually part of the country.
    In Syria, the ideas I've presented de-escalating the war, 
it is true that Assad is a magnet in the cause of ISIS. It's 
even more true that the war, and the daily bombing and killing 
of Sunnis in Syria, is a cause of ISIS.
    If we could empower the Sunnis in Iraq and de-escalate the 
war in Syria, I think we'd make more of a contribution to this 
conflict than any incremental number of forward air controllers 
or Special Forces.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman. Thank you for 
continuing this series of very significant and illuminating 
hearings.
    I want to thank all three of our witnesses.
    Particularly, Ambassador Crocker, thank you for hosting us 
when you have in Afghanistan, and for your insights and advice 
to this committee and to me afterward.
    I know a lot of ground has been covered. I've been in and 
out of the hearing, and had an opportunity to follow it, as 
well, remotely.
    I want to focus, for the moment, on the refugee issue, and 
most particularly on trafficking of survivors, refugees, 
particularly women and children. I met recently with a young 
Yazidi trafficking survivor who told me about her escape, very 
courageous escape from systematic rape and brutality that 
Yazidi women and children have endured at the hands of ISIL. It 
has been--the situation has been detailed by a number of the 
media, as well. Rape has been increasingly used as a tool of 
terrorism to destabilize communities and exert control over 
women and girls and communities there, and, in the case of 
ISIL, purposely to hold thousands of Yazidi's men, women, 
children in captivity. So, I think we should try to find a way 
to expand and intensify our efforts to assist these victims.
    Let me begin, Mr. Gordon, by asking you what role the 
United States and its coalition partners should have in 
securing the safe release of these women and children still 
held by ISIL, and how--maybe open it to the other witnesses, as 
well--how CENTCOM can ensure that the partner training 
exercises being conducted in Iraq are taking an interagency 
approach to this issue.
    Mr. Gordon. Senator, thank you. I couldn't--it is 
impossible to overstate the humanitarian and strategic 
consequences of the refugee crisis. You mentioned it in a 
humanitarian standpoint. There are more than 10 million 
displaced. Strategically, it really does threaten the 
neighbors. I think some of us may be surprised that a country 
like Lebanon is still functioning, notwithstanding the fact 
that I think a quarter of its population are now Syrian 
refugees--Syria, Jordan. We've talked about how it spills over 
to the United States and the European Union, as well.
    We are already doing a lot. I think the United States has 
been a leader. I think we've provided more than $4 billion. As 
you know, and, I think, are implying, that's not even close to 
what is necessary. So, we need to do even more. We need to 
lead.
    I think one of the arguments for America's embrace and 
willingness to take refugees is not just the humanitarian one, 
which is enormous; otherwise, leaving them to their fates in 
the region or to a squalid refugee camp. Showing as--America as 
a welcoming country and not anti-Muslim, I think, is a--is the 
big tool in this overall struggle, beyond what we can do to the 
individuals.
    Then, finally, comes back to the political points that 
we're all talking about. Whatever we can do for individual 
refugees is obviously hugely important, but we need to stop the 
flow, the sources of this problem that we just discussed, 
response to Senator Gillibrand's question. I fear, too, that if 
we don't deal with those causes, we're going to have a hearing 
2 or 3 years from now on this same problem, and it's going to 
be many times bigger than it is now.
    Senator Blumenthal. Ambassador Crocker?
    Ambassador Crocker. Thank you, Senator.
    Of course, the community you're talking about are neither 
Muslim nor refugees. They would love to be refugees, because, 
however bad that was, at least they'd be out of the hands of 
Islamic State.
    Senator Blumenthal. They're, right now, captives.
    Ambassador Crocker. They are captives. They are slaves. 
They are sex slaves.
    It is a reminder that Islamic State is evil. As long as it 
exists, as long as it holds ground, it will use it for evil 
purposes. Whether that is attacks into Paris, planning attacks 
into the United States, enslavement of innocents, executions of 
others, they will do it. I'm grateful to you for recalling that 
there is a--there is such a thing in this world as evil. Assad 
is evil. ISIS is evil. As the Chairman has said in a different 
context earlier, we need to keep a moral compass on these 
things. We're America.
    Senator Blumenthal. Thank you.
    Chairman McCain. I thank the witnesses. This has been 
extremely helpful, I am sure, to all of us and those who are 
observing on C-SPAN. I don't think we could have had three 
finer members of the--of a group of people who have served 
their country with honor and distinction. We were proud to have 
all three of you before the committee today.
    Jack, do you want to----
    Senator Reed. Just to comment you, Mr. Chairman, for 
holding a very timely and very important hearing, and to thank 
the witnesses again for their service and for their thoughtful, 
thoughtful comments. Thank you.
    Chairman McCain. Adjourned.
    [Whereupon, at 12:11 p.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Kelly Ayotte
                      iranian regime and the jcpoa
    Senator Ayotte. In your prepared statement, you stated that you do 
not believe the United States and Iran are moving toward rapprochement.

    1. Why do you believe that?
    Ambassador Crocker. [Deleted.]

    Senator Ayotte. You say that the relationship with Iran is ``a 
transactional relationship, not a transformational one.''

    2. Do you see any evidence that the nature of the Iranian Regime is 
likely to change in the next decade or two?
    Ambassador Crocker. [Deleted.]
                               __________
             Questions Submitted by Senator Jeanne Shaheen
                 afghan special immigrant visa program
    Senator Shaheen. Last year during a Senate Armed Services Committee 
hearing you expressed strong support for the Afghan Special Immigrant 
Visa (SIV) program. In the fiscal year 2016 National Defense 
Authorization Act, I included a provision to increase the number of 
SIVs by 3,000.

    3. Do you still support this program and do you believe Congress 
should authorize additional SIVs in fiscal year 2017, as necessary to 
ensure there are visas available for qualified applicants?
    Ambassador Crocker. [Deleted.]

                                 [all]
</pre></body></html>
